Appendix A-1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MICHAEL SACKETT; CHANTELL
SACKETT,
Plaintiffs-Appellants,
v.

No. 19-35469
D.C. No.
2:08-cv-00185EJL

U.S. ENVIRONMENTAL PROTECTION
AGENCY; MICHAEL S. REGAN,
Administrator,*

OPINION

Defendants-Appellees.
Appeal from the United States District Court
for the District of Idaho
Edward J. Lodge, District Judge, Presiding
Argued and Submitted November 19, 2020
Submission Withdrawn December 1, 2020
Resubmitted August 9, 2021
Seattle, Washington
Filed August 16, 2021

* Michael S. Regan has been automatically substituted for former
Administrator Steven L. Johnson. Fed. R. App. P. 43(c)(2).

Appendix A-2
Before: Ronald M. Gould and Michelle T. Friedland,
Circuit Judges, and Jill A. Otake,** District Judge.
Opinion by Judge Friedland
________________________________________________
SUMMARY***
________________________________________________
Mootness / Environmental Law
The panel affirmed the district court’s summary
judgment in favor of the Environmental Protection
Agency (“EPA”) in an action brought by plaintiff
landowners, challenging an EPA compliance order
that stated that plaintiffs’ property contained
wetlands subject to protection under the Clean Water
Act (“CWA”) and that directed them to remove fill and
restore the property to its natural state.
When the parties were briefing this appeal, in a
letter to plaintiffs, EPA abruptly withdrew its
compliance order. The panel held that the EPA’s
withdrawal of the order did not moot this case. EPA’s
stated intention not to enforce the amended
compliance order or issue a similar one in the future
did not bind the agency, and EPA could potentially
change positions under new leadership. In addition,
the letter did nothing to alter EPA’s litigation position
The Honorable Jill A. Otake, United States District Judge for
the District of Hawaii, sitting by designation.
**

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

***

Appendix A-3
that it has authority to regulate the plaintiffs’
property. Accordingly, the panel could not conclude
that it was “absolutely clear” that EPA would not
either reinstate the amended compliance or issue a
new one, and, therefore, this case was not moot. The
panel rejected EPA’s arguments to the contrary.
The panel next addressed the district court’s
refusal to strike a July 2008 Memo by EPA wetlands
ecologist John Olson from the administrative record.
The Memo contained observations and photographs
from Olson’s visit to plaintiffs’ property. The panel
held, pursuant to its review under the Administrative
Procedure Act, that the district court did not abuse its
discretion in permitting EPA to include the July 2008
Memo in the administrative record.
Turning to the entry of summary judgment on the
merits, the panel held that, under Northern California
River Watch v. City of Healdsburg, 496 F.3d 993, 999–
1000
(9th
Cir.
2007),
Justice
Kennedy’s
understanding of “significant nexus” in his concurring
opinion in Rapanos v. United States, 547 U.S. 715
(2006), provided the governing standard for
determining when wetlands are regulated under the
CWA. The panel rejected plaintiffs’ arguments that
Northern California River Watch v. City of Healdsburg
was no longer law of the circuit. Applying the
significant nexus standard, the panel held that the
requirements of the concurrence and the applicable
regulations were satisfied here. The panel concluded
that EPA reasonably determined that plaintiffs’
property contained wetlands. It further determined
that the record plainly supported EPA’s conclusion
that the wetlands on plaintiffs’ property were adjacent

Appendix A-4
to a jurisdictional tributary and that, together with a
similarly situated wetlands complex, they had a
significant nexus to Priest Lake, a traditional
navigable water, such that the property was regulable
under the CWA and the relevant regulations.
COUNSEL
Anthony L. François (argued) and Damien M. Schiff,
Pacific Legal Foundation, Sacramento, California, for
Plaintiffs-Appellants.
Brian C. Toth (argued) and David Gunter, Attorneys;
Eric Grant, Deputy Assistant Attorney General;
Jean E. Williams, Acting Assistant Attorney General;
Environment and Natural Resources Division, United
States Department of Justice, Washington, D.C.;
Karyn Wendelowski, Attorney, United States
Environmental Protection Agency, Washington, D.C.;
for Defendants-Appellees.
________________________________________________
OPINION
FRIEDLAND, Circuit Judge:
Plaintiffs Chantell and Michael Sackett
purchased a soggy residential lot near Idaho’s Priest
Lake in 2004. They planned to build a home on the
property, but the project became entangled in a
regulatory dispute. Shortly after the Sacketts began
placing sand and gravel fill on the lot, they received
an administrative compliance order from the
Environmental Protection Agency (“EPA”). The order
stated that the property contained wetlands subject to

Appendix A-5
protection under the Clean Water Act (“CWA”), and
that the Sacketts had to remove the fill and restore
the property to its natural state. Instead, the Sacketts
sued EPA in 2008, contending that the agency’s
jurisdiction under the CWA does not extend to their
property. The case has been winding its way through
the federal courts ever since. When the parties were
briefing this appeal, EPA abruptly withdrew its
compliance order.
We first consider whether EPA’s withdrawal of
the compliance order, twelve years after it first issued,
moots this case. We hold that it does not. We then
decide whether jurisdiction under the CWA extends to
the Sacketts’ lot. We hold that it does and thus affirm
the district court’s grant of summary judgment in
EPA’s favor.
I.
A.
Congress enacted the CWA “to restore and
maintain the chemical, physical, and biological
integrity of the Nation’s waters.” 33 U.S.C. § 1251(a).
The Act extends to all “navigable waters,” defined as
“waters of the United States, including the territorial
seas,” and it prohibits any person who lacks a permit
from discharging pollutants, including rocks and
sand, into those waters. Id. §§ 1311(a), 1362(6), (7),
(12). If EPA finds that a violation is occurring, one of
its enforcement options is to issue an administrative
compliance order—as was issued to the Sacketts. Id.
§ 1319(a). A compliance order describes the nature of
the violation and requires the recipient to cease the
illegal discharge activity. See id. To enforce a

Appendix A-6
compliance order, EPA may bring an enforcement
action in federal district court. Id. § 1319(b).
Since the CWA was enacted, agencies and courts
have struggled to identify the outer definitional limits
of the phrase “waters of the United States,” which in
turn defines the scope of the federal government’s
regulatory jurisdiction under the CWA. The U.S.
Army Corps of Engineers (the “Corps”) first issued
regulations defining “waters of the United States” in
the 1970s, shortly after the CWA took effect. Initially,
the Corps determined that the CWA covered only
waters that were navigable in fact, see 39 Fed. Reg.
12,115, 12,119 (Apr. 3, 1974), but the Corps later
adopted different, broader interpretations that
remained in effect at the time the Sacketts received
the compliance order, see 42 Fed. Reg. 37,122, 37,144
(July 19, 1977); 51 Fed. Reg. 41,206, 41,250–51
(Nov. 13, 1986); 53 Fed. Reg. 20,764, 20,774 (June 6,
1988).
As relevant here, the regulations defined “waters
of the United States” to include “wetlands” that are
“adjacent” to traditional navigable waters and their
tributaries. See 33 C.F.R. § 328.3(a)(1), (a)(5), (a)(7)
(2008). “Wetlands” were defined as “areas that are
inundated or saturated by surface or ground water at
a frequency and duration sufficient to support, and
that under normal circumstances do support, a
prevalence of vegetation typically adapted for life in
saturated soil conditions.” Id. § 328.3(b). “Adjacent”
was defined as “bordering, contiguous, or
neighboring,” and the regulations explicitly stated
that “adjacent wetlands” included wetlands separated

Appendix A-7
from other waters of the United States by artificial
dikes or barriers. Id. § 328.3(c).1
In several decisions, the Supreme Court has
grappled with the proper interpretation of 33 U.S.C.
§ 1362(7)’s phrase “the waters of the United States.”
In United States v. Riverside Bayview Homes, Inc., 474
U.S. 121 (1985), the Court held that the Corps’
interpretation of that phrase as including wetlands
that were not themselves navigable, but which
“actually abut[ted] on” traditional navigable
waterways, was “a permissible interpretation” of the
CWA. Id. at 131–35. Then, in Solid Waste Agency of
Northern Cook County v. U.S. Army Corps of
In the years since the challenged compliance order issued, EPA
and the Corps have continued to revise the regulatory definition
of “waters of the United States” under the CWA. In 2015, the
agencies proposed the Clean Water Rule, 80 Fed. Reg. 37,054
(June 29, 2015). But implementation of the Clean Water Rule
was stayed pursuant to multiple court challenges, and two courts
eventually decided that the rule was “unlawful” and remanded it
to the agencies. See Georgia v. Wheeler, 418 F. Supp. 3d 1336,
1372 (S.D. Ga. 2019); Texas v. EPA, 389 F. Supp. 3d 497, 504–06
(S.D. Tex. 2019). The agencies ultimately repealed the Clean
Water Rule and reinstated the pre-2015 regulatory definition.
See 84 Fed. Reg. 56,626, 56,659–60 (Oct. 22, 2019).
1

On January 23, 2020, EPA and the Corps promulgated yet
another regulatory definition of “waters of the United States.”
See 85 Fed. Reg. 22,250, 22,273 (Apr. 21, 2020). The agencies,
however, are currently reevaluating that Rule, in keeping with
President Biden’s executive order Protecting Public Health and
the Environment and Restoring Science to Tackle the Climate
Crisis, Exec. Order No. 13990, 86 Fed. Reg. 7037 (Jan. 20, 2021).
See Definition of “Waters of the United States”: Rule Status and
Litigation Update, U.S. EPA, https://www.epa.gov/nwpr/definitio
n-waters-united-states-rule-status-and-litigation-update
(last
updated Apr. 23, 2021) (“Consistent with the Executive Order,
EPA and the [Corps] are reviewing the [2020] Rule.”).

Appendix A-8
Engineers, 531 U.S. 159 (2001), the Court rejected the
Corps’ attempt to regulate isolated sand and gravel
pits that “seasonally ponded,” holding that the term
“waters of the United States” does not include
“nonnavigable, isolated, intrastate waters.” Id. at 164,
172–174.
Finally, and most relevant here, in Rapanos v.
United States, 547 U.S. 715 (2006), the Court vacated
two decisions upholding the application of the CWA to
wetlands connected to distant navigable waters via
ditches or artificial drains. Id. at 757. In his plurality
opinion, Justice Scalia, joined by three other Justices,
articulated one test for determining whether wetlands
could be regulated under the CWA, id. at 739, while
Justice Kennedy authored a concurrence articulating
a different test, id. at 779–80. The parties here dispute
which Rapanos opinion controls whether EPA has
jurisdiction over the Sacketts’ lot.
B.
In 2004, the Sacketts purchased a 0.63-acre lot
near Priest Lake, one of the largest lakes in Idaho.
The property is bounded by roads to the north and
south. To the north, across Kalispell Bay Road, lies
the Kalispell Bay Fen, a large wetlands complex that
drains into an unnamed tributary. That tributary
feeds Kalispell Creek, which, in turn, flows southwest
of the Sacketts’ property and then empties into Priest
Lake. To the south, across another road, is a row of
homes fronting Priest Lake. The Sacketts’ property is
300 feet from the lake.
In May 2007, having obtained building permits
from their county, the Sacketts began backfilling the

Appendix A-9
property with sand and gravel to create a stable grade.
EPA and Corps officials soon visited the property and,
believing the property contained wetlands that might
be subject to the CWA, suggested that work stop
absent a permit from the Corps.
Six months later, EPA issued the Sacketts a
formal administrative compliance order. The order
stated that the property contained wetlands subject to
the CWA. It went on to explain that the Sacketts’
placement of fill material onto half an acre of their
property without a discharge permit constituted a
violation of the CWA. The Sacketts were ordered to
“immediately undertake activities to restore the Site”
in keeping with a “Restoration Work Plan” provided
by EPA, and they were given five months to complete
the remediation. The order also informed the Sacketts
that failure to comply could result in civil and
administrative penalties of over $40,000 per day.
C.
On April 28, 2008, shortly before the deadline for
compliance, the Sacketts sued EPA, seeking
declaratory and injunctive relief. The Complaint
alleged that the agency’s issuance of the compliance
order was arbitrary and capricious under the
Administrative Procedure Act (“APA”), 5 U.S.C.
§ 706(2), because it was premised on an erroneous
assertion of jurisdiction under the CWA.2

2 The Complaint also alleged violations of the Sacketts’
substantive and procedural due process rights, but those claims
were dropped in the Amended Complaint and are not at issue in
this appeal. See Sackett v. EPA, 566 U.S. 120, 125 (2012).

Appendix A-10
On May 15, 2008, EPA and the Corps again
inspected the site. EPA wetlands ecologist John Olson
took field notes on the property and its surroundings,
and he completed a seven-page jurisdictional
determination (“JD”), in which he concluded that the
Sacketts’ lot contained wetlands subject to regulation
under the CWA.
That same day, after Olson reported his findings
to his superiors at the agency, EPA issued the
Sacketts an amended compliance order that extended
the dates for compliance but otherwise mirrored the
original order. The amended order reiterated that the
property contained wetlands subject to CWA
regulation, that the Sacketts’ discharge of fill material
was pollution in violation of the CWA, and that their
continued noncompliance could result in significant
monetary sanctions. The amended compliance order
“supersede[d] and replace[d]” the original compliance
order.
Six weeks later, on July 1, 2008, Olson authored a
memorandum (the “July 2008 Memo”), in which he
memorialized his observations from the May site visit.
The memo contains photographs from the visit that
depict flooded soils and wetland vegetation on the
Sacketts’ lot in areas not yet covered with fill. Two
such photos are included in an appendix to this
opinion.
EPA moved to dismiss the Sacketts’ lawsuit,
contending that the original compliance order was not
“final agency action . . . subject to judicial review”

Appendix A-11
under the APA.3 5 U.S.C. § 704. The district court
granted the motion, and our court affirmed,
concluding that the CWA precludes pre-enforcement
judicial review of compliance orders. See Sackett v.
EPA, 622 F.3d 1139, 1147 (9th Cir. 2010). But the
Supreme Court granted certiorari and reversed,
holding that the original compliance order constituted
“final agency action” subject to judicial review under
the APA. Sackett v. EPA, 566 U.S. 120, 131 (2012).
On remand, the Sacketts amended their
Complaint to challenge the amended compliance
order, and district court proceedings continued for
seven more years. In March 2019, the district court
entered summary judgment in EPA’s favor, holding
that the agency’s issuance of the amended compliance
order was not arbitrary or capricious. In the same
order, the district court denied a motion by the
Sacketts to strike from the administrative record the
July 2008 Memo and materials referenced therein but
also explained that summary judgment would have
been appropriate even if those materials were not
considered.
The Sacketts timely appealed both the grant of
summary judgment and the denial of the motion to
strike. Following an unsuccessful attempt at
mediation, the Sacketts filed their opening brief in
December 2019. After we granted EPA two filing
extensions for its opposition brief, the agency sent the
Sacketts a two-paragraph letter in March 2020,
withdrawing the amended compliance order issued
3 Because the Sacketts filed their Complaint before the amended
compliance order issued, only the original compliance order was
at issue at this stage in the court proceedings.

Appendix A-12
twelve years prior. In the letter, the agency explained
that “several years ago EPA decided to no longer
enforce the [order] against you.” The letter assured
the Sacketts that “EPA does not intend to issue a
similar order to you in the future for this Site.”
EPA then moved to dismiss the appeal as moot.
According to the agency, its withdrawal of the
amended compliance order effectively granted the
Sacketts complete relief, which mooted the case. The
Sacketts disagreed, explaining that the status of their
property remains unsettled and that EPA did not
withdraw the 2008 JD, in which Olson concluded that
the agency has authority under the CWA to regulate
the Sacketts’ property.4
II.
A.
We review de novo whether a case has become
moot. Biodiversity Legal Found. v. Badgley, 309 F.3d
1166, 1173 (9th Cir. 2002). “A case that becomes moot
at any point during the proceedings is ‘no longer a
“Case” or “Controversy” for purposes of Article III,’
and is outside the jurisdiction of the federal courts.”
United States v. Sanchez-Gomez, 138 S. Ct. 1532, 1537
(2018) (quoting Already, LLC v. Nike, Inc., 568 U.S.
In an unpublished order, a motions panel denied the motion to
dismiss without prejudice to EPA’s renewing the argument in
opposition, which EPA did. That prior ruling does not eliminate
the need for us to reassess this jurisdictional question. See
Sanchez v. City of Santa Ana, 936 F.2d 1027, 1032 n.3 (9th Cir.
1990) (explaining that a merits panel has an independent duty
to determine whether it has jurisdiction, even if a motions panel
already ruled on the issue).
4

Appendix A-13
85, 91 (2013)). A party asserting mootness “bears the
heavy burden of establishing that there remains no
effective relief a court can provide.” Bayer v. Neiman
Marcus Grp., Inc., 861 F.3d 853, 862 (9th Cir. 2017).
“‘The question is not whether the precise relief sought
at the time the case was filed is still available,’ but
‘whether there can be any effective relief.’” Id.
(quoting McCormack v. Herzog, 788 F.3d 1017, 1024
(9th Cir. 2015)).
The already “heavy burden” of establishing
mootness is even heavier for EPA here because its
mootness argument stems from its own voluntary
conduct—namely its decision to withdraw the
amended compliance order. When a defendant
voluntarily ceases challenged conduct, mootness
follows only “if subsequent events [make] it absolutely
clear that the allegedly wrongful behavior could not
reasonably be expected to recur.” Friends of the Earth,
Inc. v. Laidlaw Env’t Servs. (TOC), Inc., 528 U.S. 167,
189 (2000) (emphasis added) (quoting United States v.
Concentrated Phosphate Exp. Ass’n, 393 U.S. 199, 203
(1968)).
In deciding whether EPA has met its burden of
establishing that its letter withdrawing the amended
compliance order mooted this case, our decision in
Porter v. Bowen, 496 F.3d 1009 (9th Cir. 2007), is
instructive. In Porter, the operators of websites that
encouraged interstate “vote swapping” for the 2000
presidential election brought a § 1983 action against
the California Secretary of State after the Secretary
had threatened one of them with criminal prosecution.
Id. at 1012. While the lawsuit was pending, doubts
apparently arose about whether California law

Appendix A-14
actually criminalized this activity, and the Secretary
sent a letter to the Speaker of the California State
Assembly explaining that the State would not pursue
prosecutions unless the state legislature clarified the
relevant election laws. Id. at 1016.5 The district court
held that this letter from the Secretary rendered the
plaintiffs’ claim for prospective relief moot. Id.
We reversed, holding that the Secretary “fail[ed]
to carry the ‘heavy burden’ of establishing that it is
‘absolutely clear’ that California will not threaten to
prosecute the owners of [the websites] if they create
vote-swapping websites in the future.” Id. at 1017. We
explained that the letter “d[id] not suggest that it
[wa]s binding on the Secretary of State,” and that a
new Secretary of State who had since entered office
“could initiate the prosecution of vote-swapping
websites at her discretion.” Id. Finally, we observed
that “the Secretary has maintained throughout the
nearly seven years of litigation . . . that [the Secretary]
had the authority under state law to threaten [the
plaintiffs] with prosecution,” a position that the
plaintiffs believed violated their rights. Id.
The Sacketts’ situation is directly analogous.
EPA’s stated intention not to enforce the amended
compliance order or issue a similar one in the future
does not bind the agency, and EPA could potentially
change positions under new leadership. Further, the
letter did nothing to alter EPA’s position throughout
this litigation that it has authority to regulate the
Sacketts’ property. Indeed, during oral argument,
counsel for the agency was unwilling to represent that
the agency lacked authority over the property and,
5

Presumably this would have required a statutory amendment.

Appendix A-15
even after more than a decade of litigation, could not
answer questions about whether the Sacketts could
develop their land. The agency could have disavowed
the JD, but it declined to do so. Accordingly, because
we cannot conclude that it is “absolutely clear” that
EPA will not either reinstate the amended compliance
order (or issue a new one), this case is not moot.
EPA’s arguments to the contrary are unavailing.
First, EPA contends that the “inscribed-by-hand,
unsigned, never-issued” JD, which it refused to
disavow, cannot be considered “final agency action.”
But this is a red herring. Even if the 2008 JD itself
would not constitute “final agency action” required to
bring an APA claim because it lacks the “hallmarks of
APA finality,” see Sackett, 566 U.S. at 126, that is
beside the point. The “final agency action”
requirement was already satisfied by the original
compliance order when the Sacketts filed this lawsuit,
as the Supreme Court specifically held. Id. at 131; see
also United Steel, Paper & Forestry, Rubber, Mfg.,
Energy, Allied Indus. & Serv. Workers Int’l Union v.
Shell Oil Co., 602 F.3d 1087, 1091–92 (9th Cir. 2010)
(explaining that “post-filing developments” do not
defeat statutory requirements for jurisdiction “if
jurisdiction was properly invoked as of the time of
filing”). The question we now face is whether the
agency can end the litigation by voluntarily
withdrawing the challenged order. As the Supreme
Court has emphasized, whether a suit may be
initiated and whether it may be terminated as moot
are different inquiries. Cf. Laidlaw, 528 U.S. at 190
(“[T]here are circumstances in which the prospect that
a defendant will engage in (or resume) harmful

Appendix A-16
conduct may be too speculative to support standing,
but not too speculative to overcome mootness.”).
Accordingly, we conclude that the JD is relevant
not because of its potential to serve as “final agency
action,” but rather because it demonstrates EPA’s
refusal to concede that it lacks the authority to
regulate the Sacketts’ land. See Fikre v. FBI, 904 F.3d
1033, 1037 (9th Cir. 2018) (explaining that, when
asserting mootness due to voluntary cessation, the
government must “demonstrate that the change in its
behavior is ‘entrenched’ or ‘permanent’” (quoting
McCormack, 788 F.3d at 1025)). As long as EPA
avoids disclaiming authority to regulate the Sacketts’
property, the core of this dispute is alive and well.
Second, EPA argues that the Sacketts already
received “full relief” when the agency withdrew its
amended compliance order. Again, we disagree. EPA’s
argument ignores the practical realities of the
Sacketts’ predicament. If we were to dismiss this case
as moot, the Sacketts would not have prevailed in any
meaningful sense; rather, they would be stuck in the
same regulatory quagmire they have been in for the
past thirteen years. As we have explained, nothing
prevents the agency from reinstating the amended
compliance order, issuing a new one, or possibly even
pursuing another avenue of enforcement available to
it under the CWA. Withdrawal of the amended
compliance order, therefore, hardly affords the
Sacketts “full relief.” See United States v. Tanoue, 94
F.3d 1342, 1344 (9th Cir. 1996). By contrast, if we
were to side with the Sacketts on the merits and grant
the requested declaratory relief, they would finally be
on solid ground when resuming construction.

Appendix A-17
The fact that the Sacketts’ central legal challenge
remains unresolved distinguishes this case from the
authorities relied on by EPA. In Oregon Natural
Resources Council v. Grossarth, 979 F.2d 1377 (9th
Cir. 1992), for example, the plaintiffs challenged a
proposed timber sale by the U.S. Forest Service,
alleging in part that the Forest Service had failed to
prepare a required Environmental Impact Statement
(“EIS”). Id. at 1378. While the case was pending, the
plaintiffs simultaneously pursued an administrative
appeal and prevailed, causing the Forest Service to
halt the sale and order that an EIS be prepared. Id.
We held that this intervening administrative order
mooted the appeal. Id. at 1379–80. We reasoned that
the Forest Service’s cancellation of the sale and its
decision to prepare an EIS “was not a voluntary
cessation within the meaning of that doctrine, but was
instead the result of [the plaintiffs’] successful
administrative appeal. Accordingly, [the plaintiffs’]
invocation of the voluntary cessation theory [wa]s
misplaced.” Id. at 1379. We further held that, even if
the Forest Service’s conduct could be considered
voluntary cessation, the record contained “no basis on
which we could form a ‘reasonable expectation’ that
there [would] be a recurrence of the same allegedly
unlawful conduct by the Forest Service in the future.”
Id.
The
situation
facing
the
Sacketts
is
distinguishable in both respects. EPA’s decision to
withdraw the amended compliance order was not the
result of a judgment from an intervening
administrative proceeding. The agency provided no
explanation for why, “several years ago,” it resolved
not to enforce the amended compliance order against

Appendix A-18
the Sacketts, but it appears to have been a voluntary
agency decision. Moreover, there is evidence in the
record from which we could form a “reasonable
expectation” that the same allegedly unlawful conduct
by EPA could recur, given that the agency apparently
still believes it has authority under the CWA to
regulate the Sacketts’ property.
Third, to bolster its claim that the case is moot,
EPA invokes the general presumption of good faith
that the government traditionally enjoys in the
context of mootness by voluntary cessation. See Am.
Cargo Transp., Inc. v. United States, 625 F.3d 1176,
1180 (9th Cir. 2010) (“The government’s change of
policy presents a special circumstance in the world of
mootness. . . . [U]nlike in the case of a private party,
we presume the government is acting in good faith.”).
But this presumption is by no means dispositive. In
Fikre, for example, a district court had dismissed as
moot a plaintiff’s lawsuit challenging his placement
on the No Fly List after the FBI restored the plaintiff’s
flying privileges during the litigation. See 904 F.3d at
1036–37.
We
reversed,
and
although
we
acknowledged that the FBI benefitted from a
presumption of good faith, we explained that the
“government must still demonstrate that the change
in its behavior is ‘entrenched’ or ‘permanent’” to moot
a case. Id. at 1037–38 (quoting McCormack, 788 F.3d
at 1025). We observed that the FBI’s decision to
remove the plaintiff from the list during the litigation
was “an individualized determination untethered to
any explanation or change in policy.” Id. at 1039–40.
We held that, absent an “explanation of [its] reasons
. . . the government has not repudiated the decision to
add [him] to the No Fly List and maintain him there

Appendix A-19
for approximately five years.” Id. at 1040. We further
reasoned that “[b]ecause there are neither procedural
hurdles to reinstating [the plaintiff] on the No Fly List
. . . nor any renouncement by the government of its . . .
authority to do so, the voluntary cessation doctrine
applies . . . [and the plaintiff’s] due process claims are
not moot.” Id. at 1041.
Here, although we similarly presume EPA
withdrew its amended compliance order in good faith,
the agency’s conduct prevents that presumption from
carrying the day. As explained, we are not confident
that the agency has permanently ceased attempting
to regulate the Sacketts’ land. In addition, we note
that, although EPA represents that it resolved
“several years ago” not to enforce the amended
compliance order, it informed the Sacketts of this
development only on the eve of EPA’s filing deadline
for its opposition brief—a deadline we had already
extended twice, in response to requests from the
agency that had not mentioned any change in the
agency’s enforcement intentions. Cf. id. at 1040. If we
are to take EPA’s letter at face value, the agency
caused the Sacketts to litigate cross-motions for
summary judgment in the district court, participate in
mediation, and then pursue this appeal after the
agency had already concluded it would never enforce
the challenged compliance order. Forcing the Sacketts
to engage in years of litigation, under threat of tens of
thousands of dollars in daily fines, only to assert at
the eleventh hour that the dispute has actually been
moot for a long time, is not a litigation strategy we
wish to encourage.

Appendix A-20
Lastly, EPA argues that the new definition of
“waters of the United States” it adopted in 2020, see
85 Fed. Reg. 22,250, 22,273 (Apr. 21, 2020), governs
its authority over wetlands such that any judicial
decision regarding the prior regulation “would be
purely advisory.” But the Sacketts’ primary legal
argument is that they “are entitled to prevail as a
matter of law based on the unambiguous text of the
[CWA] as interpreted by the Rapanos plurality, no
matter what regulatory interpretation EPA adopts.”
Therefore, a decision resolving whether the Sacketts’
interpretation of the CWA is correct will not be purely
advisory.
At bottom, the central dispute in this case
remains unresolved. The Sacketts are still, thirteen
years later, seeking an answer to whether EPA can
prevent them from developing their property.
Accordingly, we hold that this case is not moot.
B.
Before turning to the merits, we address the
district court’s refusal to strike Olson’s July 2008
Memo from the administrative record.6 We review
that ruling for abuse of discretion. Sw. Ctr. for

6 In the district court, the Sacketts moved to strike additional
documents that were cited in the July 2008 Memo. On appeal,
however, the Sacketts only provide argument on why the July
2008 Memo itself should be stricken. We therefore consider only
whether that memo was appropriately included in the
administrative record. See Miller v. Fairchild Indus., Inc., 797
F.2d 727, 738 (9th Cir. 1986) (“The Court of Appeals will not
ordinarily consider matters on appeal that are not specifically
and distinctly argued in appellant’s opening brief.”).

Appendix A-21
Biological Diversity v. U.S. Forest Serv., 100 F.3d
1443, 1447 (9th Cir. 1996).
A court reviews agency action under the APA by
considering the “whole record” that was before the
agency when it undertook the challenged action. 5
U.S.C. § 706; see also Camp v. Pitts, 411 U.S. 138, 142
(1973) (per curiam) (holding that “the focal point for
judicial review” of whether agency action is arbitrary
and capricious “should be the administrative record
already in existence, not some new record made
initially in the reviewing court”). The Sacketts
contend that, because the July 2008 Memo postdated
the amended compliance order, it was wrongly
included in the administrative record.
We hold that the district court did not abuse its
discretion in permitting EPA to include the July 2008
Memo in the administrative record. Although the
memo postdates the issuance of the amended
compliance order by six weeks, it simply memorializes
the observations and conclusions that Olson and a
Corps official made during their May site visit and
attaches other information available to EPA before
the order issued. Specifically, the memo consists of
photos Olson took during the May site visit, historical
aerial photos that Olson had examined “[p]rior to
visiting the site,” general maps of the area, Olson’s
observations from the May site visit, and descriptions
of the “[e]cology and hydrology of the Sackett wetland”
based on observations made during that site visit.
Thus, the memo does not contain the sort of “‘post hoc’
rationalizations” that do not belong in an
administrative record. Citizens to Preserve Overton
Park, Inc. v. Volpe, 401 U.S. 402, 419 (1971) (quoting

Appendix A-22
Burlington Truck Lines v. United States, 371 U.S. 156,
168 (1962)), abrogated on other grounds by Califano v.
Sanders, 430 U.S. 99 (1977).
Indeed, the record shows that the July 2008 Memo
repeats the observations that informed the challenged
agency action. Declarations from EPA officials
establish that, shortly after his site visit, Olson called
EPA’s Regional Counsel to relay his findings and his
conclusion that the Sackett property contained
wetlands subject to the CWA. The Regional Counsel
then relayed Olson’s findings to EPA’s Office of
Ecosystems, Tribal, and Public Affairs, and
recommended based on those findings that the Office
issue the amended compliance order. Because the July
2008 Memo thus conveys the same information that
the agency considered and relied on in issuing the
amended compliance order, we cannot say the district
court abused its discretion in declining to strike it
from the record. Cf. Thompson v. United States Dep’t
of Lab., 885 F.2d 551, 555 (9th Cir. 1989) (explaining
that the “whole administrative record” for purposes of
judicial review of agency action includes materials
“directly or indirectly considered by agency decisionmakers” (emphasis omitted) (quoting Exxon Corp. v.
Dep’t of Energy, 91 F.R.D. 26, 33 (N.D. Tex. 1981))).
C.
We now turn to whether EPA was entitled to
summary judgment on the merits. We review the
district court’s grant of summary judgment de novo.
Nw. Env’t Advocs. v. EPA, 537 F.3d 1006, 1014 (9th
Cir. 2008). The Sacketts’ core argument is premised
on interpreting Justice Scalia’s plurality opinion in
Rapanos v. United States, 547 U.S. 715 (2006), as

Appendix A-23
providing the governing standard for determining
CWA jurisdiction over wetlands.7 In Rapanos, the
Court considered “whether four Michigan wetlands,
The Sacketts also argue that EPA failed to comply with the
Corps’ 1987 Wetlands Delineation Manual when evaluating their
property, and that their property does not contain wetlands at
all. We reject both arguments. Even assuming the 1987 Manual
was still operative, but see Tin Cup, LLC v. U.S. Army Corp of
Eng’rs, 904 F.3d 1068, 1072 (9th Cir. 2018), EPA complied with
the manual here. The manual identifies a procedure for
identifying wetlands in “atypical situations,” such as when
“recent human activities” have resulted in “removal of
vegetation” and “placement of dredged or fill material over hydric
soils.” In this circumstance, the agency is instructed to try and
“determine the type of vegetation that previously occurred,”
including by consulting recent aerial photography, conducting
onsite inspections, and observing adjacent vegetation. EPA did
all of those things here.
7

As for EPA’s conclusion that there were in fact wetlands on
the property, we review the agency’s conclusion for substantial
evidence. Ctr. for Biological Diversity v. Esper, 958 F.3d 895, 910
(9th Cir. 2020). That standard is easily satisfied. The applicable
regulations define wetlands as “those areas that are inundated
or saturated by surface or ground water at a frequency and
duration sufficient to support, and that under normal
circumstances do support, a prevalence of vegetation typically
adapted for life in saturated soil conditions.” 33 C.F.R. § 328.3(b)
(2008). During his May 2008 site visit, Olson “observed that all
portions of the Sackett property where native soil was removed
but fill material had not been placed . . . were inundated or
ponded/saturated to the surface.” Olson’s photos from the site
visit corroborate these observations. EPA’s inspection report
from the prior year further explained that “strips of excavated
ground revealed wetland soils” on the Sacketts’ lot and that the
vegetation on the south end of the lot “consisted of the wetland
species.” Photos from the 2007 site visit reflect such conditions.
Representative photos from both the 2007 and 2008 site visits
are included in an appendix to this opinion. We therefore proceed
on the understanding that the Sacketts’ property contains
wetlands.

Appendix A-24
which lie near ditches or man-made drains that
eventually empty into traditional navigable waters,
constitute[d] ‘waters of the United States’ within the
meaning of the [CWA].” Id. at 729 (plurality opinion).
The Sixth Circuit approved of the Corps’ assertion of
jurisdiction under the applicable regulations, which
included as “waters of the United States” wetlands
that were “adjacent” to any tributary that fed a
navigable water. Id. at 729–30. The Court held that
the Sixth Circuit had applied the wrong legal
standard to evaluate whether the wetlands fell within
the scope of the CWA, and that a remand was
necessary. Id. at 757.
No opinion garnered a majority. Justice Scalia,
writing for four Justices, rejected the regulatory
definition of “adjacency” and instead concluded that,
under the statute, “waters of the United States”
extend only to “relatively permanent, standing or
flowing bodies of water” and to wetlands with a
“continuous surface connection” to such permanent
waters. Id. at 739, 742.
Justice Kennedy concurred in the judgment. He
accepted the regulatory definition of adjacency, id. at
775 (Kennedy, J., concurring in the judgment), but he
rejected the Corps’ position that wetlands are
necessarily “waters of the United States” any time
they are “bordering, contiguous [with], or
neighboring” a tributary, 33 C.F.R. § 328.3(c) (2008),
“however remote and insubstantial, that eventually
may flow into traditional navigable waters.” Id. at
778. Justice Kennedy interpreted the CWA as
imposing an additional requirement for regulatory
jurisdiction over wetlands: “jurisdiction over wetlands

Appendix A-25
depends upon the existence of a significant nexus
between the wetlands in question and navigable
waters in the traditional sense.” Id. at 779. This
“significant nexus” inquiry would turn on whether the
wetlands, “either alone or in combination with
similarly situated lands in the region, significantly
affect the chemical, physical, and biological integrity
of other covered waters more readily understood as
‘navigable.’”8 Id. at 780.
Although the Scalia plurality did not entirely
reject the concept of a “significant nexus,” which
derived from earlier Supreme Court caselaw, it opined
that only wetlands with a “physical connection” to
traditional navigable waters had the requisite nexus
to qualify as “waters of the United States.” Id. at 755
(plurality opinion).
The Sacketts argue that the Scalia plurality
provides the governing legal standard. They further
argue that, because their property does not contain
wetlands with a continuous surface connection to any
“waters of United States,” the agency’s assertion of
jurisdiction over their property ran afoul of the CWA
and the APA.
In interpreting Rapanos to evaluate this
argument, we are not writing on a blank slate. In
Northern California River Watch v. City of
Healdsburg, 496 F.3d 993 (9th Cir. 2007), we
concluded that “Justice Kennedy’s concurrence
8 Consistent with Riverside Bayview Homes, Justice Kennedy
infers that this significant nexus requirement is satisfied when a
wetland directly abuts on a traditional navigable water.
Rapanos, 547 U.S. at 780.

Appendix A-26
provides the controlling rule of law” from Rapanos. Id.
at 999–1000. To reach this determination, we engaged
in the inquiry the Supreme Court established in
Marks v. United States, 430 U.S. 188 (1977), under
which the controlling holding of a fractured decision is
“the narrowest ground to which a majority of the
Justices would assent if forced to choose in almost all
cases.” Healdsburg, 496 F.3d at 999. In determining
that narrowest ground, we relied heavily on the
Seventh Circuit’s decision in United States v. Gerke
Excavating, Inc., 464 F.3d 723 (7th Cir. 2006) (per
curiam), which likewise applied Marks to conclude
that the Kennedy concurrence supplied the
controlling rule in Rapanos. Healdsburg, 496 F.3d at
999–1000. Under Healdsburg, therefore, our circuit’s
law is that Justice Kennedy’s understanding of
“significant nexus” provides the governing standard
for determining when wetlands are regulable under
the CWA.
The Sacketts contend that a later en banc decision
of our court fatally undermines Healdsburg such that
it is no longer law of the circuit. In United States v.
Davis, 825 F.3d 1014 (9th Cir. 2016) (en banc), we
clarified how we perform a Marks analysis to interpret
a fractured decision. We reflected “that the Marks
inquiry at times has ‘baffled and divided the lower
courts that have considered it,’” and we observed that
two approaches to applying Marks had come to
predominate: a reasoning-based approach and a
results-based approach. Id. at 1020–21 (quoting
Nichols v. United States, 511 U.S. 738, 746 (1994)).
Under the reasoning-based approach, courts “look to
those opinions that concurred in the judgment and
determine whether one of those opinions sets forth a

Appendix A-27
rationale that is the logical subset of other, broader
opinions. When, however, no common denominator of
the Court’s reasoning exists, we are bound only by the
specific result.” Id. at 1028 (quotation marks omitted).
Under the results-based approach, the controlling
holding from the fractured case in question is the rule
that “would necessarily produce results with which a
majority of the Justices . . . would [have] agree[d].” Id.
at 1021 (quoting Planned Parenthood of Se. Pa. v.
Casey, 947 F.2d 682, 694 (3d Cir. 1991), aff’d in part,
rev’d in part, 505 U.S. 833 (1992)). Our court in Davis
embraced the reasoning-based approach, see id. at
1028, and we remain bound by that holding.
The Sacketts argue that the court in Healdsburg
did not employ a reasoning-based framework when
performing its Marks analysis of Rapanos, and they
contend that Healdsburg is therefore no longer good
law after Davis. We disagree.9 In our circuit, a threejudge panel may abandon the holding of a prior panel
only when intervening higher authority is “clearly
irreconcilable” with that earlier panel opinion. Miller
v. Gammie, 335 F.3d 889, 900 (9th Cir. 2003) (en
banc). Therefore, we will disregard Healdsburg only if

9 A prior decision of our court considered this precise question.
In United States v. Robertson, 875 F.3d 1281 (9th Cir. 2017), we
held that Healdsburg was not clearly irreconcilable with Davis
and therefore remained law of the circuit. Id. at 1291–92. But the
Supreme Court summarily vacated the judgment in that case
because the defendant died while his petition for certiorari was
pending. See Robertson v. United States, 139 S. Ct. 1543 (2019)
(Mem.) (granting writ of certiorari, vacating the judgment, and
remanding “for consideration of the question whether the case is
moot”).

Appendix A-28
it is clearly irreconcilable with our en banc decision in
Davis.
It is not. We explained in Davis that the
narrowest opinion for purposes of a Marks analysis is
the opinion that concurs in the judgment that is “the
logical subset of other, broader opinions,” and which
therefore represents “a common denominator of the
Court’s reasoning.” Davis, 825 F.3d at 1028. In
Healdsburg, our Marks analysis consisted of a single
paragraph that endorsed the Seventh Circuit’s Marks
analysis in Gerke. See Healdsburg, 496 F.3d at 999–
1000.
Gerke, in turn, elaborated on why the Kennedy
concurrence articulated a narrower ground for
reversing than did the Scalia plurality such that “the
Kennedy concurrence is the least common
denominator.” Gerke, 464 F.3d at 725. The two
opinions begin on common ground, as Justice
Kennedy had himself expressed. Rapanos, 547 U.S. at
767 (Kennedy, J., concurring in the judgment) (“The
plurality’s opinion begins from a correct premise. As
the plurality points out . . . in enacting the [CWA]
Congress intended to regulate at least some waters
that are not navigable in the traditional sense.”).
Gerke recognized that the plurality and the
concurrence also agreed that for wetlands to fall
within CWA jurisdiction, they had to share some
connection with traditional navigable waters. See 464
F.3d at 724–25. As the Seventh Circuit further
explained, “[t]he plurality Justices thought that
Justice Kennedy’s ground for reversing was narrower
than their own. . . . Justice Kennedy expressly
rejected two ‘limitations’ imposed by the plurality on

Appendix A-29
federal authority over wetlands under the Clean
Water Act.” Id. at 724 (quoting Rapanos, 547 U.S. at
768).
Admittedly, Gerke’s analysis does not fit neatly
into either a reasoning-based or a results-based Marks
framework, and portions of the opinion are consistent
with the results-based Marks analysis that we
rejected in Davis. See, e.g., id. (explaining that Justice
Kennedy’s approach will yield a result that will
command five votes “in most cases”) (emphasis
omitted). The results-based aspects of Gerke present
some tension with Davis, but to be superseded under
Miller v. Gammie, “[i]t is not enough for there to be
some tension between the intervening higher
authority and prior circuit precedent, or for the
intervening higher authority to cast doubt on the prior
circuit precedent.” Lair v. Bullock, 697 F.3d 1200,
1207 (9th Cir. 2012) (citation and quotation marks
omitted). Thus, although Gerke is not a paradigmatic
example of a reasoning-based Marks analysis, it is not
“clearly irreconcilable” with such an approach. And
because Healdsburg adopted Gerke’s application of
Marks, we conclude that Healdsburg’s “theory or
reasoning” was likewise not clearly undercut by
Davis. Miller, 335 F.3d at 900.
The Sacketts also contend that Healdsburg is
clearly irreconcilable with intervening authority in
another way. They argue that Healdsburg relied on
the Rapanos dissent in its Marks analysis, and that
shortly after Davis, we held that dissents could not be
considered for purposes of a Marks analysis. The
Sacketts cite to our decision in Cardenas v. United
States, 826 F.3d 1164 (9th Cir. 2016), in which we

Appendix A-30
wrote that the “narrowest opinion must represent a
common denominator of the Court’s reasoning; it must
embody a position implicitly approved by at least five
Justices who support the judgment.” Id. at 1171
(emphasis added) (quoting Davis, 825 F.3d at 1020).
But this language in Cardenas is no more than a
direct quotation from Davis, a decision in which we
explicitly reserved judgment on the very question that
the Sacketts assert Cardenas decided. Davis, 825 F.3d
at 1025 (“Here, we assume but do not decide that
dissenting opinions may be considered in a Marks
analysis.”); id. at 1025 n.12 (“We note that . . . the D.C.
Circuit explicitly stated that it was not free to combine
a dissent with a concurrence to form a Marks majority.
We emphasize here, however, that we do not decide
that issue.” (quotation marks and citation omitted)).
Thus, Davis cannot stand for the proposition that
dissents are off-limits in a Marks inquiry, and neither
can Cardenas, which cited Davis only in passing and
did not consider that question.10
Moreover,
the
Sacketts’
argument
mischaracterizes Healdsburg because Healdsburg
does not directly or indirectly depend on the Rapanos
dissent, even though Healdsburg does cite to the
dissent in its Marks analysis. As explained above,
Healdsburg relied heavily on Gerke. Later, when
rejecting an argument that Gerke improperly used the
Rapanos dissent in its Marks analysis, the Seventh
Circuit clarified that Gerke had not relied on the
dissent. The Seventh Circuit explained that, in Gerke,
10 We also note that a three-judge panel decision such as
Cardenas could not have superseded Healdsburg, an earlier
decision of our court, because it is not an intervening higher
authority. See Miller, 335 F.3d at 899.

Appendix A-31
the operative narrower-grounds inquiry compared the
concurrence and the plurality, and that, although
Gerke did make “the same narrower-grounds point in
comparing the concurrence with the dissenting
opinion . . . that comparison was not necessary to
resolving the appeal, so it was dicta.” Gibson v. Am.
Cyanamid Co., 760 F.3d 600, 621 (7th Cir. 2014).
Because Healdsburg primarily relied on Gerke, we
similarly conclude that the mention of the Rapanos
dissent in Healdsburg does not indicate that
Healdsburg relied on that dissent.
For all these reasons, the Sacketts’ arguments
fail, and Healdsburg remains law of the circuit—
meaning the Kennedy concurrence is still the
controlling opinion from Rapanos.11

11 The Sacketts further contend that County of Maui v. Hawaii
Wildlife Fund, 140 S. Ct. 1462 (2020), makes clear that the Scalia
plurality provides the Court’s authoritative opinion on the
meaning of the CWA. It is true that in County of Maui, all four
opinions refer only to the Rapanos plurality when interpreting
the CWA. See, e.g., id. at 1478 (Kavanaugh, J., concurring)
(noting that the majority’s reading of “discharge” “adheres to the
interpretation set forth in Justice Scalia’s plurality opinion in
Rapanos”). But County of Maui did not concern the scope of
“waters of the United States.” The question presented in County
of Maui was an entirely different one—the meaning of pollution
from a point source under the CWA, id. at 1468 (majority
opinion)—so there was no reason to rely on the distinctions
between the Scalia plurality and the Kennedy concurrence in
Rapanos. See Hawai‘i Wildlife Fund v. County of Maui, 886 F.3d
737, 748 (9th Cir. 2018) (“In past cases, we have recognized
Justice Kennedy’s concurrence in Rapanos . . . as controlling. But
we have only done so in the context of ‘determin[ing] whether a
wetland that is not adjacent to and does not contain a navigablein-fact water is subject to the CWA.’” (quoting Robertson, 875
F.3d at 1288–89)), vacated and remanded, 140 S. Ct. 1462.

Appendix A-32
D.
We therefore apply Justice Kennedy’s “significant
nexus” inquiry to evaluate whether EPA has
jurisdiction to regulate the Sacketts’ property. In
answering this question, we also use the regulations
that were in effect when EPA issued the amended
compliance order.12 See United States v. Lucero, 989
F.3d 1088, 1104–05 (9th Cir. 2021) (holding that the
definition of “waters of the United States” from the
regulation that was in place at the time of the
defendant’s conduct applied, despite the promulgation
of a new regulation that narrowed that definition
while the case was pending on appeal). The Sacketts’
only challenge to those regulations is premised on the
Scalia plurality being the controlling opinion.
Under the APA, a court may set aside agency
action if it is “arbitrary, capricious . . . or otherwise not
in accordance with law.” 5 U.S.C. § 706(2)(A). “The
scope of review under the ‘arbitrary and capricious’
standard is narrow and a court is not to substitute its
judgment for that of the agency.” Motor Vehicle Mfrs.
Ass’n v. State Farm Mut. Auto. Ins. Co., 463 U.S. 29,
43 (1983). “As a reviewing court, we must consider
whether the decision was based on a consideration of
the relevant factors and whether there has been a
clear error of judgment.” San Luis & Delta-Mendota
Water Auth. v. Jewell, 747 F.3d 581, 601 (9th Cir.
County of Maui is thus inapposite here and does not disturb our
interpretation of Rapanos.
12 The Sacketts object to the district court’s citation to agency
guidance issued after the amended compliance order. We need
not address this argument because we do not rely for any part of
our analysis on that agency guidance.

Appendix A-33
2014) (quotation marks omitted). “Where the agency
has relied on relevant evidence . . . that a reasonable
mind might accept as adequate to support a
conclusion, its decision is supported by substantial
evidence, and this court must affirm the agency’s
finding.” Ctr. for Biological Diversity v. Esper, 958
F.3d 895, 910 (9th Cir. 2020) (quotation marks and
brackets omitted).
It is clear that the requirements of the Kennedy
concurrence and the applicable regulations are
satisfied here. The record plainly supports EPA’s
conclusion that the wetlands on the Sacketts’ property
are adjacent to a jurisdictional tributary and that,
together with the similarly situated Kalispell Bay
Fen, they have a significant nexus to Priest Lake, a
traditional navigable water.
First, there was nothing arbitrary about EPA’s
determination that the Sacketts’ wetlands were
adjacent to a jurisdictional tributary, and thus fell
into the relevant regulatory definition of “waters of
the United States.” 33 C.F.R. § 328.3(a)(1), (5), (7)
(2008) (defining a wetland that is adjacent to a
tributary of a traditional navigable water as a water
of the United States). At the time of the challenged
compliance order, artificial barriers did not defeat
adjacency. See id. § 328.3(c) (“Wetlands separated
from other waters of the United States by man-made
dikes or barriers . . . and the like are ‘adjacent
wetlands.’”); see also Rapanos, 547 U.S. at 780. EPA
therefore properly concluded that the wetlands on the
Sacketts’ lot were adjacent to the unnamed tributary
to Kalispell Creek thirty feet away, notwithstanding
that Kalispell Bay Road lies in between the property

Appendix A-34
and the tributary.13 Officials from the site visit also
observed that the tributary is “relatively permanent”
based on U.S. Geological Survey mapping as well as
its flow, channel size, and form. Moreover, because
this unnamed tributary eventually flows into Priest
Lake, a traditional navigable water, via Kalispell
Creek, the tributary is jurisdictional—that is, it is
itself a water of the United States. See 33 C.F.R.
§ 328.3(a)(5) (explaining
that
tributaries to
jurisdictional waters are themselves jurisdictional).
Accordingly, EPA’s conclusion that the Sacketts’ lot
was adjacent to a jurisdictional tributary was neither
arbitrary nor capricious.
We turn next to Justice Kennedy’s “significant
nexus” inquiry: whether “the wetlands, either alone or
in combination with similarly situated lands in the
region, significantly affect the chemical, physical, and
biological integrity of other covered waters more
readily understood as ‘navigable.’” Rapanos, 547 U.S.
at 780 (Kennedy, J., concurring in the judgment).
At the time of the amended compliance order,
EPA had explained that “‘[s]imilarly situated’
wetlands include all wetlands adjacent to the same
tributary.” U.S. EPA & Army Corps of Engineers,
Clean Water Act Jurisdiction Following the U.S.
Supreme Court’s Decision in Rapanos v. United States
& Carabell v. United States (June 5, 2007),
https://www.epa.gov/sites/production/files/2016-04/do
13 EPA and Corps scientists who inspected the site concluded
that a “shallow subsurface flow is occurring” beneath the road,
connecting the Sacketts’ lot to the tributary and the Kalispell
Bay Fen wetland system to the north. This bolsters the agency’s
conclusion that the road should not defeat adjacency.

Appendix A-35
cuments/rapanosguidance6507.pdf.
Here,
EPA
appropriately concluded based on the observations
from the site visit and maps of the area that, like the
Sacketts’ wetlands, the Kalispell Bay Fen is adjacent
to the unnamed tributary to Kalispell Creek.14
Therefore, the Sacketts’ wetlands and the Fen are
similarly situated for purposes of evaluating whether
they have a significant nexus to Priest Lake.
The record further supports EPA’s conclusion that
these wetlands, in combination, significantly affect
the integrity of Priest Lake. Water from these
wetlands makes its way into Priest Lake via the
unnamed tributary and Kalispell Creek. According to
the July 2008 memo, these wetlands provide
important ecological and water quality benefits;
indeed, the memo identified this wetlands complex,
which is one of the five largest along the 62-mile Priest
Lake shoreline, as “especially important in
maintaining the high quality of Priest Lake’s water,
fish, and wildlife.” The agency’s conclusion that the
Sacketts’ wetlands, combined with the similarly
situated Fen, “significantly affect the chemical,
physical, and biological integrity of” Priest Lake was
a reasonable one which we will not second-guess.
Rapanos, 547 U.S. at 780 (Kennedy, J., concurring in
the judgment); see also San Luis & Delta-Mendota
Water Auth., 747 F.3d at 621 (emphasizing that “we
do not sit as a panel of referees on a professional
scientific journal, but as a panel of generalist judges
14 The July 2008 Memo further explained that the Sacketts’
wetlands and the Fen remain interconnected via a subsurface
flow, and historical aerial photographs establish that they used
to be a single wetland complex, both of which reinforce the
agency’s conclusion that the two are similarly situated.

Appendix A-36
obliged to defer to a reasonable judgment by an
agency” (brackets omitted) (quoting City of Los
Angeles v. Dep’t of Transp., 165 F.3d 972, 977 (D.C.
Cir. 1999))).
In sum, EPA reasonably determined that the
Sacketts’ property contains wetlands that share a
significant nexus with Priest Lake, such that the lot
was regulable under the CWA and the relevant
regulations.
III.
For the foregoing reasons, we affirm the district
court’s grant of summary judgment in EPA’s favor.
AFFIRMED.

Appendix A-37
APPENDIX

View south from Kalispell Bay Road along east edge
of Sackett property, taken during 2008 site visit.

Appendix A-38

View north from Old Schneiders Road of south and
west edges of property, taken during 2008 site visit.

Appendix A-39

East side of the lot showing strip of excavated ground
that was being filled when EPA officials arrived,
taken during 2007 site visit.

Appendix A-40
An official website of the United States government
Here’s how you know
United States
Environmental Protection
Agency

Menu

Search EPA.gov
Waters of the United States
CONTACT US <https://epa.gov/wotus/forms/contactus-about-navigable-waters-protection-rule>
Definition of “Waters of the United States”: Rule
Status and Litigation Update
On January 20, 2021, President Joseph R. Biden
Jr. signed Executive Order 13990 <https://www.white
house.gov/briefing-room/presidential-actions/2021/01
/20/executive-order-protecting-public-health-and-env
ironment-and-restoring-science-to-tackle-climate-cris
is/> on “Protecting Public Health and the
Environment and Restoring Science to Tackle the
Climate Crisis,” which orders the agencies to
immediately review, and as appropriate and
consistent with applicable law, take action to address
the previous administration’s regulations and actions
that conflict with important national environmental
and public health objectives. Consistent with the
Executive Order, EPA and the Department of the
Army are reviewing the Navigable Waters Protection
Rule.
The Navigable Waters Protection Rule became
effective on June 22, 2020 and is being implemented

Appendix A-41
by EPA and the Army. On June 19, 2020, the U.S.
District Court for the District of Colorado stayed the
effective date of the Navigable Waters Protection Rule
in the State of Colorado. On March 2, 2021, the Tenth
Circuit Court of Appeals reversed and vacated the
U.S. District Court for the District of Colorado’s order.
As a result, the Navigable Waters Protection Rule is
in effect throughout the country. Read the final
Navigable Waters Protection Rule <https://epa.gov/
wotus/final-rule-navigable-waters-protection-rule>.
If a state, tribe, or an entity has specific questions
about a pending jurisdictional determination or
permit, please contact a local U.S. Army Corps of
Engineers District office <https://www.usace.army.
mil/locations.aspx> or the EPA.
Waters of the United States Home
<https://epa.gov/wotus>
About Waters of the United States
<https://epa.gov/wotus/about-waters-united-states>
Current Definition of Waters of the United
States <https://epa.gov/wotus/currentimplementation-waters-united-states>
Programs Utilizing the Definition of Waters of
the United States <https://epa.gov/wotus/cleanwater-act-programs-utilizing-definition-wotus>

Appendix A-42

Current Implementation of Waters of the United
States <https://epa.gov/wotus/current-implementa
tion-waters-united-states>
Training and Implementation Memos
<https://epa.gov/wotus/training-andimplementation memos>
Implementation Tools and Methods
<https://epa.gov/wotus/implementation-toolsand-methods>
Intention to Revise the Definition of Waters of the
United States <https://epa.gov/wotus/intentionrevise-definition-waters-united-states>
Public Outreach and Stakeholder Engagement
Activities <https://epa.gov/wotus/publicoutreach-and-stakeholder-engagementactivities>

Contact Us <https://epa.gov/wotus/forms/contact-usabout-navigable-waters-protection-rule> to ask a
question, provide feedback, or report a problem.

Appendix A-43
United States Environmental Protection Agency

Discover.
Accessibility <https://epa.gov/accessibility>
Budget & Performance
<https://epa.gov/planandbudget>
Contracting <https://epa.gov/contracts>
EPA www Web Snapshot
<https://epa.gov/home/wwwepagov-snapshots>
Grants <https://epa.gov/grants>
No FEAR Act Data
<https://epa.gov/ocr/whistleblower-protections-epaand-how-they-relate-non-disclosure-agreementssigned-epa-employees>
Privacy <https://epa.gov/privacy>
Privacy and Security Notice
<https://epa.gov/privacy/privacy-and-security-notice>

Connect.
Data.gov <https://www.data.gov/>
Inspector General <https://epa.gov/office-inspectorgeneral/about-epas-office-inspector-general>
Jobs <https://epa.gov/careers>
Newsroom <https://epa.gov/newsroom>

Appendix A-44
Open Government <https://epa.gov/data>
Regulations.gov <https://www.regulations.gov/>
Subscribe <https://epa.gov/newsroom/emailsubscriptions-epa-news-releases>
USA.gov <https://www.usa.gov/>
White House <https://www.whitehouse.gov/>

Ask.
Contact EPA <https://epa.gov/home/forms/contactepa>
EPA Disclaimers <https://epa.gov/web-policies-andprocedures/epa-disclaimers>
Hotlines <https://epa.gov/home/epa-hotlines>
FOIA Requests <https://epa.gov/foia>
Frequent Questions
<https://epa.gov/home/frequent-questions-specificepa-programstopics>

Follow.
LAST UPDATED ON APRIL 26, 2021

Appendix A-45
United States
Environmental
Protection Agency

Department of the Army
United States
of America

Clean Water Act Jurisdiction
Following the U.S. Supreme Court’s Decision
in
Rapanos v. United States &
Carabell v. United States
This memorandum provides guidance to EPA
regions and U.S. Army Corps of Engineers [“Corps”]
districts implementing the Supreme Court’s decision
in the consolidated cases Rapanos v. United States
and Carabell v. United States1 (herein referred to
simply as “Rapanos”) which address the jurisdiction
over waters of the United States under the Clean
Water Act.2 The chart below summarizes the key
points contained in this memorandum. This reference
tool is not a substitute for the more complete
discussion of issues and guidance furnished
throughout the memorandum.
Summary of Key Points
The agencies will assert jurisdiction over the
following waters:
• Traditional navigable waters
• Wetlands adjacent to traditional
navigable waters

1

126 S. Ct. 2208 (2006).

2

33 U.S.C. §1251 et seq.

Appendix A-46
• Non-navigable tributaries of traditional
navigable waters that are relatively
permanent where the tributaries
typically flow year-round or have
continuous flow at least seasonally (e.g.,
typically three months)
• Wetlands that directly abut such
tributaries
The agencies will decide jurisdiction over the
following waters based on a fact-specific
analysis to determine whether they have a
significant nexus with a traditional navigable
water:
• Non-navigable tributaries that are not
relatively permanent
• Wetlands adjacent to non-navigable
tributaries that are not relatively
permanent
• Wetlands adjacent to but that do not
directly abut a relatively permanent
non-navigable tributary
The agencies generally will not assert
jurisdiction over the following features:
• Swales or erosional features (e.g.,
gullies, small washes characterized by
low volume, infrequent, or short
duration flow)
• Ditches (including roadside ditches)
excavated wholly in and draining only
uplands and that do not carry a
relatively permanent flow of water

Appendix A-47
The agencies will apply the significant nexus
standard as follows:
• A significant nexus analysis will assess
the flow characteristics and functions of
the tributary itself and the functions
performed by all wetlands adjacent to
the tributary to determine if they
significantly affect the chemical,
physical and biological integrity of
downstream traditional navigable
waters
• Significant nexus includes consideration
of hydrologic and ecologic factors
Background
Congress enacted the Clean Water Act (“CWA” or
“the Act”) “to restore and maintain the chemical,
physical, and biological integrity of the Nation’s
waters.”3 One of the mechanisms adopted by Congress
to achieve that purpose is a prohibition on the
discharge of any pollutants, including dredged or fill
material, into “navigable waters” except in compliance
with other specified sections of the Act.4 In most cases,
this means compliance with a permit issued pursuant
to CWA §402 or §404. The Act defines the term
“discharge of a pollutant” as “any addition of any
pollutant to navigable waters from any point
source[,]”5 and provides that “[t]he term ‘navigable

3

33 U.S.C. § 1251(a).

4

33 U.S.C. § 1311(a), §1362(12)(A).

5

33 U.S.C. § 1362(12)(A).

Appendix A-48
waters’ means the waters of the United States,
including the territorial seas.”6
In Rapanos, the Supreme Court addressed where
the Federal government can apply the Clean Water
Act, specifically by determining whether a wetland or
tributary is a “water of the United States.” The
justices issued five separate opinions in Rapanos (one
plurality opinion, two concurring opinions, and two
dissenting opinions), with no single opinion
commanding a majority of the Court.
The Rapanos Decision
Four justices, in a plurality opinion authored by
Justice Scalia, rejected the argument that the term
“waters of the United States” is limited to only those
waters that are navigable in the traditional sense and
their abutting wetlands.7 However, the plurality
concluded that the agencies’ regulatory authority
should extend only to “relatively permanent, standing
or continuously flowing bodies of water” connected to
traditional navigable waters, and to “wetlands with a
continuous surface connection to” such relatively
permanent waters.8
Justice Kennedy did not join the plurality’s
opinion but instead authored an opinion concurring in
the judgment vacating and remanding the cases to the

33 U.S.C. § 1362(7). See also 33 C.F.R. § 328.3(a) and 40 C.F.R.
§ 230.3(s).

6

7

Id. at 2220.

8

Id. at 2225-27.

Appendix A-49
Sixth Circuit Court of Appeals.9 Justice Kennedy
agreed with the plurality that the statutory term
“waters of the United States” extends beyond water
bodies that are traditionally considered navigable.10
Justice Kennedy, however, found the plurality’s
interpretation of the scope of the CWA to be
“inconsistent with the Act’s text, structure, and
purpose[,]” and he instead presented a different
standard for evaluating CWA jurisdiction over
wetlands and other water bodies.11 Justice Kennedy
concluded that wetlands are “waters of the United
States” “if the wetlands, either alone or in
combination with similarly situated lands in the
region, significantly affect the chemical, physical, and
biological integrity of other covered waters more
readily understood as ‘navigable.’ When, in contrast,
wetlands’ effects on water quality are speculative or
insubstantial, they fall outside the zone fairly
encompassed by the statutory term ‘navigable
waters.’”12

9 Id. at 2236-52. While Justice Kennedy concurred in the Court’s
decision to vacate and remand the cases to the Sixth Circuit, his
basis for remand was limited to the question of “whether the
specific wetlands at issue possess a significant nexus with
navigable waters.” 126 S. Ct. at 2252. In contrast, the plurality
remanded the cases to determine both “whether the ditches and
drains near each wetland are ‘waters,’” and “whether the
wetlands in question are ‘adjacent’ to these ‘waters’ in the sense
of possessing a continuous surface connection….” Id. at 2235.
10

Id. at 2241.

11

Id. at 2246.

Id. at 2248. Chief Justice Roberts wrote a separate concurring
opinion explaining his agreement with the plurality. See 126 S.
Ct. at 2235-36.
12

Appendix A-50
Four justices, in a dissenting opinion authored by
Justice Stevens, concluded that EPA’s and the Corps’
interpretation of “waters of the United States” was a
reasonable interpretation of the Clean Water Act.13
When there is no majority opinion in a Supreme
Court case, controlling legal principles may be derived
from those principles espoused by five or more
justices.14 Thus, regulatory jurisdiction under the
CWA exists over a water body if either the plurality’s
or Justice Kennedy’s standard is satisfied.15 Since
Rapanos, the United States has filed pleadings in a
number of cases interpreting the decision in this
manner.
The agencies are issuing this memorandum in
recognition of the fact that EPA regions and Corps
districts need guidance to ensure that jurisdictional
13 Id. at 2252-65. Justice Breyer wrote a separate dissenting
opinion explaining his agreement with Justice Stevens’ dissent.
See 126 S. Ct. at 2266.

See Marks v. United States, 430 U.S. 188, 193-94 (1977);
Waters v. Churchill, 511 U.S. 661, 685 (1994) (Souter, J.,
concurring) (analyzing the points of agreement between
plurality, concurring, and dissenting opinions to identify the
legal “test … that lower courts should apply,” under Marks, as
the holding of the Court); cf. League of United Latin American
Citizens v. Perry, 126 S. Ct. 2594, 2607 (2006) (analyzing
concurring and dissenting opinions in a prior case to identify a
legal conclusion of a majority of the Court); Alexander v.
Sandoval, 532 U.S. 275, 281-282 (2001) (same).
14

126 S. Ct. at 2265 (Stevens, J., dissenting) (“Given that all
four justices who have joined this opinion would uphold the
Corps’ jurisdiction in both of these cases — and in all other cases
in which either the plurality’s or Justice Kennedy’s test is
satisfied — on remand each of the judgments should be
reinstated if either of those tests is met.”) (emphasis in original).
15

Appendix A-51
determinations, permitting actions, and other
relevant actions are consistent with the decision and
supported by the administrative record. Therefore,
the agencies have evaluated the Rapanos opinions to
identify those waters that are subject to CWA
jurisdiction under the reasoning of a majority of the
justices. This approach is appropriate for a guidance
document. The agencies intend to more broadly
consider jurisdictional issues, including clarification
and definition of key terminology, through
rulemaking or other appropriate policy process.
Agency Guidance16
To ensure that jurisdictional determinations,
administrative enforcement actions, and other
relevant agency actions are consistent with the
Rapanos decision, the agencies in this guidance
address which waters are subject to CWA § 404
jurisdiction.17 Specifically, this guidance identifies
The CWA provisions and regulations described in this
document contain legally binding requirements. This guidance
does not substitute for those provisions or regulations, nor is it a
regulation itself. It does not impose legally binding requirements
on EPA, the Corps, or the regulated community, and may not
apply to a particular situation depending on the circumstances.
Any decisions regarding a particular water will be based on the
applicable statutes, regulations, and case law. Therefore,
interested persons are free to raise questions about the
appropriateness of the application of this guidance to a particular
situation, and EPA and/or the Corps will consider whether or not
the recommendations or interpretations of this guidance are
appropriate in that situation based on the statutes, regulations,
and case law.
16

17 This guidance focuses only on those provisions of the agencies’
regulations at issue in Rapanos — 33 C.F.R. §§ 328.3(a)(1), (a)(5),
and (a)(7); 40 C.F.R. §§ 230.3(s)(1), (s)(5), and (s)(7). This

Appendix A-52
those waters over which the agencies will assert
jurisdiction categorically and on a case-by-case basis,
based on the reasoning of the Rapanos opinions.18
EPA and the Corps will continually assess and review
the application of this guidance to ensure nationwide
consistency, reliability, and predictability in our
administration of the statute.

guidance does not address or affect other subparts of the
agencies’ regulations, or response authorities, relevant to the
scope of jurisdiction under the CWA. In addition, because this
guidance is issued by both the Corps and EPA, which jointly
administer CWA § 404, it does not discuss other provisions of the
CWA, including §§ 311 and 402, that differ in certain respects
from § 404 but share the definition of “waters of the United
States.” Indeed, the plurality opinion in Rapanos noted that “…
there is no reason to suppose that our construction today
significantly affects the enforcement of §1342 … The Act does not
forbid the ‘addition of any pollutant directly to navigable waters
from any point source,’ but rather the ‘addition of any pollutant
to navigable waters.’” (emphasis in original) 126 S. Ct. 2208,
2227. EPA is considering whether to provide additional guidance
on these and other provisions of the CWA that may be affected
by the Rapanos decision.
In 2001, the Supreme Court held that use of “isolated” nonnavigable intrastate waters by migratory birds was not by itself
a sufficient basis for the exercise of federal regulatory
jurisdiction under the CWA. See Solid Waste Agency of Northern
Cook County (SWANCC) v. U.S. Army Corps of Engineers, 531
U.S. 159 (2001). This guidance does not address SWANCC, nor
does it affect the Joint Memorandum regarding that decision
issued by the General Counsels of EPA and the Department of
the Army on January 10, 2003. See 68 Fed. Reg. 1991, 1995
(Jan. 15, 2003).
18

Appendix A-53
1. Traditional Navigable Waters (i.e.,“(a)(1)
Waters”) and Their Adjacent Wetlands
Key Points
• The agencies will assert jurisdiction over
traditional navigable waters, which
includes all the waters described in
33 C.F.R. § 328.3(a)(1), and 40 C.F.R.
§ 230.3 (s)(1).
• The agencies will assert jurisdiction over
wetlands adjacent to traditional
navigable waters, including over adjacent
wetlands that do not have a continuous
surface connection to traditional
navigable waters.

EPA and the Corps will continue to assert
jurisdiction over “[a]ll waters which are currently
used, or were used in the past, or may be susceptible
to use in interstate or foreign commerce, including all
waters which are subject to the ebb and flow of the
tide.”19 These waters are referred to in this guidance
as traditional navigable waters.
The agencies will also continue to assert
jurisdiction over wetlands “adjacent” to traditional
navigable waters as defined in the agencies’
regulations. Under EPA and Corps regulations and as
33 C.F.R. § 328.3(a)(1); 40 C.F.R. § 230.3(s)(1). The “(a)(1)”
waters include all of the “navigable waters of the United States,”
defined in 33 C.F.R. Part 329 and by numerous decisions of the
federal courts, plus all other waters that are navigable-in-fact
(e.g., the Great Salt Lake, UT and Lake Minnetonka, MN).
19

Appendix A-54
used in this guidance, “adjacent” means “bordering,
contiguous, or neighboring.” Finding a continuous
surface connection is not required to establish
adjacency under this definition. The Rapanos decision
does not affect the scope of jurisdiction over wetlands
that are adjacent to traditional navigable waters
because at least five justices agreed that such
wetlands are “waters of the United States.”20
2. Relatively
Permanent
Non-navigable
Tributaries of Traditional Navigable Waters
and Wetlands with a Continuous Surface
Connection with Such Tributaries
Key Points
• The agencies will assert jurisdiction over
non-navigable tributaries of traditional
navigable waters that are relatively
permanent where the tributaries typically
flow year-round or have continuous flow
at least seasonally (e.g., typically three
months).
• The agencies will assert jurisdiction over
those adjacent wetlands that have a
continuous surface connection to such
tributaries (e.g., they are not separated by
uplands, a berm, dike, or similar feature.)

Id. at 2248 (Justice Kennedy, concurring) (“As applied to
wetlands adjacent to navigable-in-fact waters, the Corps’
conclusive standard for jurisdiction rests upon a reasonable
inference of ecologic interconnection, and the assertion of
jurisdiction for those wetlands is sustainable under the Act by
showing adjacency alone.”).
20

Appendix A-55
A non-navigable tributary21 of a traditional
navigable water is a non-navigable water body whose
waters flow into a traditional navigable water either
directly or indirectly by means of other tributaries.
Both the plurality opinion and the dissent would
uphold CWA jurisdiction over non-navigable
tributaries that are “relatively permanent” — waters
that typically (e.g., except due to drought) flow yearround or waters that have a continuous flow at least
seasonally (e.g., typically three months).22 Justice
Scalia emphasizes that relatively permanent waters
do not include tributaries “whose flow is ‘coming and

A tributary includes natural, man-altered, or man-made
water bodies that carry flow directly or indirectly into a
traditional navigable water. Furthermore, a tributary, for the
purposes of this guidance, is the entire reach of the stream that
is of the same order (i.e., from the point of confluence, where two
lower order streams meet to form the tributary, downstream to
the point such tributary enters a higher order stream). The flow
characteristics of a particular tributary will be evaluated at the
farthest downstream limit of such tributary (i.e., the point the
tributary enters a higher order stream). It is reasonable for the
agencies to treat the stream reach as a whole in light of the
Supreme Court’s observation that the phrase “navigable waters”
generally refers to “rivers, streams, and other hydrographic
features.” 126 S. Ct. at 2222 (Justice Scalia, quoting Riverside
Bayview, 474 U.S. at 131). The entire reach of a stream is a
reasonably identifiable hydrographic feature. The agencies will
also use this characterization of tributary when applying the
significant nexus standard under Section 3 of this guidance.
21

See 126 S. Ct. at 2221 n. 5 (Justice Scalia, plurality opinion)
(explaining that “relatively permanent” does not necessarily
exclude waters “that might dry up in extraordinary
circumstances such as drought” or “seasonal rivers, which
contain continuous flow during some months of the year but no
flow during dry months”).
22

Appendix A-56
going at intervals ... broken, fitful.’”23 Therefore,
“relatively permanent” waters do not include
ephemeral tributaries which flow only in response to
precipitation and intermittent streams which do not
typically flow year-round or have continuous flow at
least seasonally. However, CWA jurisdiction over
these waters will be evaluated under the significant
nexus standard described below. The agencies will
assert jurisdiction over relatively permanent nonnavigable tributaries of traditional navigable waters
without a legal obligation to make a significant nexus
finding.
In addition, the agencies will assert jurisdiction
over those adjacent wetlands that have a continuous
surface connection with a relatively permanent, nonnavigable tributary, without the legal obligation to
make a significant nexus finding. As explained above,
the plurality opinion and the dissent agree that such
wetlands are jurisdictional.24 The plurality opinion
indicates that “continuous surface connection” is a
“physical connection requirement.”25 Therefore, a
23

Id. (internal citations omitted).

24

Id. at 2226-27 (Justice Scalia, plurality opinion).

25 Id. at 2232 n.13 (referring to “our physical-connection
requirement” and later stating that Riverside Bayview does not
reject “the physical-connection requirement”) and 2234
(“Wetlands are ‘waters of the United States’ if they bear the
‘significant nexus’ of physical connection, which makes them as
a practical matter indistinguishable from waters of the United
States.”) (emphasis in original). See also 126 S. Ct. at 2230
(“adjacent” means “physically abutting”) and 2229 (citing to
Riverside Bayview as “confirm[ing] that the scope of ambiguity of
‘the waters of the United States’ is determined by a wetland’s
physical connection to covered waters…”) (emphasis in original).
A continuous surface connection does not require surface water

Appendix A-57
continuous surface connection exists between a
wetland and a relatively permanent tributary where
the wetland directly abuts the tributary (e.g., they are
not separated by uplands, a berm, dike, or similar
feature).26
3. Certain Adjacent Wetlands and Nonnavigable Tributaries That Are Not Relatively
Permanent
Key Points
• The agencies will assert jurisdiction over
non-navigable, not relatively permanent
tributaries and their adjacent wetlands
where such tributaries and wetlands have
a significant nexus to a traditional
navigable water.
• A significant nexus analysis will assess the
flow characteristics and functions of the
tributary itself and the functions

to be continuously present between the wetland and the
tributary. 33 C.F.R. § 328.3(b) and 40 C.F.R. § 232.2 (defining
wetlands as “those areas that are inundated or saturated by
surface or ground water at a frequency and duration sufficient to
support … a prevalence of vegetation typically adapted for life in
saturated soil conditions”).
While all wetlands that meet the agencies’ definitions are
considered adjacent wetlands, only those adjacent wetlands that
have a continuous surface connection because they directly abut
the tributary (e.g., they are not separated by uplands, a berm,
dike, or similar feature) are considered jurisdictional under the
plurality standard.
26

Appendix A-58
performed by any wetlands adjacent to the
tributary to determine if they significantly
affect the chemical, physical and
biological integrity of downstream
traditional navigable waters.
• “Similarly situated” wetlands include all
wetlands adjacent to the same tributary.
• Significant nexus includes consideration
of hydrologic factors including the
following:
- volume, duration, and frequency of flow,
including consideration of certain
physical characteristics of the tributary
- proximity to the traditional navigable
water
- size of the watershed
- average annual rainfall
- average annual winter snow pack
• Significant nexus also includes
consideration of ecologic factors including
the following:
- potential of tributaries to carry
pollutants and flood waters to
traditional navigable waters
- provision of aquatic habitat that
supports a traditional navigable water
- potential of wetlands to trap and filter
pollutants or store flood waters
- maintenance of water quality in
traditional navigable waters

Appendix A-59
• The following geographic features
generally are not jurisdictional waters:
- swales or erosional features (e.g. gullies,
small washes characterized by low
volume, infrequent, or short duration
flow)
- ditches (including roadside ditches)
excavated wholly in and draining only
uplands and that do not carry a
relatively permanent flow of water
The agencies will assert jurisdiction over the
following types of waters when they have a significant
nexus with a traditional navigable water: (1) nonnavigable tributaries that are not relatively
permanent,27 (2) wetlands adjacent to non-navigable
tributaries that are not relatively permanent, and
(3) wetlands adjacent to, but not directly abutting, a
relatively permanent tributary (e.g., separated from it
by uplands, a berm, dike or similar feature).28 As
described below, the agencies will assess the flow
characteristics and functions of the tributary itself,
together with the functions performed by any
wetlands adjacent to that tributary, to determine

For simplicity, the term “tributary” when used alone in this
section refers to non-navigable tributaries that are not relatively
permanent.
27

As described in Section 2 of this guidance, the agencies will
assert jurisdiction, without the need for a significant nexus
finding, over all wetlands that are both adjacent and have a
continuous surface connection to relatively permanent
tributaries. See pp. 6-7, supra.
28

Appendix A-60
whether collectively they have a significant nexus
with traditional navigable waters.
The agencies’ assertion of jurisdiction over nonnavigable tributaries and adjacent wetlands that have
a significant nexus to traditional navigable waters is
supported by five justices. Justice Kennedy applied
the significant nexus standard to the wetlands at
issue in Rapanos and Carabell: “[W]etlands possess
the requisite nexus, and thus come within the
statutory phrase ‘navigable waters,’ if the wetlands,
either alone or in combination with similarly situated
lands in the region, significantly affect the chemical,
physical, and biological integrity of other covered
waters more readily understood as ‘navigable.’”29
While Justice Kennedy’s opinion discusses the
significant nexus standard primarily in the context of
wetlands adjacent to non-navigable tributaries,30 his
opinion also addresses Clean Water Act jurisdiction
over tributaries themselves. Justice Kennedy states
that, based on the Supreme Court’s decisions in
Id. at 2248. When applying the significant nexus standard to
tributaries and wetlands, it is important to apply it within the
limits of jurisdiction articulated in SWANCC. Justice Kennedy
cites SWANCC with approval and asserts that the significant
nexus standard, rather than being articulated for the first time
in Rapanos, was established in SWANCC. 126 S. Ct. at 2246
(describing SWANCC as “interpreting the Act to require a
significant nexus with navigable waters”). It is clear, therefore,
that Justice Kennedy did not intend for the significant nexus
standard to be applied in a manner that would result in assertion
of jurisdiction over waters that he and the other justices
determined were not jurisdictional in SWANCC. Nothing in this
guidance should be interpreted as providing authority to assert
jurisdiction over waters deemed non-jurisdictional by SWANCC.
29

30

126 S. Ct. at 2247-50.

Appendix A-61
Riverside Bayview and SWANCC, “the connection
between a non-navigable water or wetland may be so
close, or potentially so close, that the Corps may deem
the water or wetland a ‘navigable water’ under the
Act. … Absent a significant nexus, jurisdiction under
the Act is lacking.”31 Thus, Justice Kennedy would
limit jurisdiction to those waters that have a
significant nexus with traditional navigable waters,
although his opinion focuses on the specific factors
and functions the agencies should consider in
evaluating significant nexus for adjacent wetlands,
rather than for tributaries.
In considering how to apply the significant nexus
standard, the agencies have focused on the integral
relationship between the ecological characteristics of
tributaries and those of their adjacent wetlands,
which determines in part their contribution to
restoring and maintaining the chemical, physical and
biological integrity of the Nation’s traditional
navigable waters. The ecological relationship between
tributaries and their adjacent wetlands is well
documented in the scientific literature and reflects
their physical proximity as well as shared
hydrological and biological characteristics. The flow
parameters and ecological functions that Justice
Kennedy describes as most relevant to an evaluation
of significant nexus result from the ecological interrelationship between tributaries and their adjacent
wetlands. For example, the duration, frequency, and
volume of flow in a tributary, and subsequently the
flow in downstream navigable waters, is directly
affected by the presence of adjacent wetlands that
31

Id. at 2241 (emphasis added).

Appendix A-62
hold floodwaters, intercept sheet flow from uplands,
and then release waters to tributaries in a more even
and constant manner. Wetlands may also help to
maintain more consistent water temperature in
tributaries, which is important for some aquatic
species. Adjacent wetlands trap and hold pollutants
that may otherwise reach tributaries (and
downstream navigable waters) including sediments,
chemicals, and other pollutants. Tributaries and their
adjacent wetlands provide habitat (e.g., feeding,
nesting, spawning, or rearing young) for many aquatic
species that also live in traditional navigable waters.
When performing a significant nexus analysis,32
the first step is to determine if the tributary has any
adjacent wetlands. Where a tributary has no adjacent
wetlands, the agencies will consider the flow
characteristics and functions of only the tributary
itself in determining whether such tributary has a
significant effect on the chemical, physical and
biological integrity of downstream traditional
navigable waters. A tributary, as characterized in
Section 2 above, is the entire reach of the stream that
is of the same order (i.e., from the point of confluence,
where two lower order streams meet to form the
tributary, downstream to the point such tributary
enters a higher order stream). For purposes of
In discussing the significant nexus standard, Justice Kennedy
stated: “The required nexus must be assessed in terms of the
statute’s goals and purposes. Congress enacted the [CWA] to
‘restore and maintain the chemical, physical, and biological
integrity of the Nation’s waters’ …” 126 S. Ct. at 2248. Consistent
with Justice Kennedy’s instruction, EPA and the Corps will
apply the significant nexus standard in a manner that restores
and maintains any of these three attributes of traditional
navigable waters.

32

Appendix A-63
demonstrating a connection to traditional navigable
waters, it is appropriate and reasonable to assess the
flow characteristics of the tributary at the point at
which water is in fact being contributed to a higher
order tributary or to a traditional navigable water. If
the tributary has adjacent wetlands, the significant
nexus evaluation needs to recognize the ecological
relationship between tributaries and their adjacent
wetlands, and their closely linked role in protecting
the chemical, physical, and biological integrity of
downstream traditional navigable waters.
Therefore, the agencies will consider the flow and
functions of the tributary together with the functions
performed by all the wetlands adjacent to that
tributary in evaluating whether a significant nexus is
present. Similarly, where evaluating significant
nexus for an adjacent wetland, the agencies will
consider the flow characteristics and functions
performed by the tributary to which the wetland is
adjacent along with the functions performed by the
wetland and all other wetlands adjacent to that
tributary. This approach reflects the agencies’
interpretation of Justice Kennedy’s term “similarly
situated” to include all wetlands adjacent to the same
tributary. Where it is determined that a tributary and
its adjacent wetlands collectively have a significant
nexus with traditional navigable waters, the tributary
and all of its adjacent wetlands are jurisdictional.
Application of the significant nexus standard in this
way is reasonable because of its strong scientific
foundation — that is, the integral ecological
relationship between a tributary and its adjacent
wetlands. Interpreting the phrase “similarly situated”
to include all wetlands adjacent to the same tributary

Appendix A-64
is reasonable because such wetlands are physically
located in a like manner (i.e., lying adjacent to the
same tributary).
Principal
considerations
when
evaluating
significant nexus include the volume, duration, and
frequency of the flow of water in the tributary and the
proximity of the tributary to a traditional navigable
water. In addition to any available hydrologic
information (e.g., gauge data, flood predictions,
historic records of water flow, statistical data,
personal observations/records, etc.), the agencies may
reasonably consider certain physical characteristics of
the tributary to characterize its flow, and thus help to
inform the determination of whether or not a
significant nexus is present between the tributary and
downstream traditional navigable waters. Physical
indicators of flow may include the presence and
characteristics of a reliable ordinary high water mark
(OHWM) with a channel defined by bed and banks.33
Other physical indicators of flow may include
shelving, wracking, water staining, sediment sorting,
and scour.34 Consideration will also be given to certain
See 33 C.F.R. § 328.3(e). The OHWM also serves to define the
lateral limit of jurisdiction in a nonnavigable tributary where
there are no adjacent wetlands. See 33 C.F.R. § 328.4(c). While
EPA regions and Corps districts must exercise judgment to
identify the OHWM on a case-by-case basis, the Corps’
regulations identify the factors to be applied. These regulations
have recently been further explained in Regulatory Guidance
Letter (RGL) 05-05 (Dec. 7, 2005). The agencies will apply the
regulations and the RGL and take other steps as needed to
ensure that the OHWM identification factors are applied
consistently nationwide.
33

See Justice Kennedy’s discussion of “physical characteristics,”
126 S. Ct. at 2248-2249.
34

Appendix A-65
relevant contextual factors that directly influence the
hydrology of tributaries including the size of the
tributary’s watershed, average annual rainfall,
average annual winter snow pack, slope, and channel
dimensions.
In addition, the agencies will consider other
relevant factors, including the functions performed by
the tributary together with the functions performed
by any adjacent wetlands. One such factor is the
extent to which the tributary and adjacent wetlands
have the capacity to carry pollutants (e.g., petroleum
wastes, toxic wastes, sediment) or flood waters to
traditional navigable waters, or to reduce the amount
of pollutants or flood waters that would otherwise
enter traditional navigable waters.35 The agencies will
also evaluate ecological functions performed by the
tributary and any adjacent wetlands which affect
downstream traditional navigable waters, such as the
capacity to transfer nutrients and organic carbon vital
to
support
downstream
foodwebs
(e.g.,
macroinvertebrates present in headwater streams
convert carbon in leaf litter making it available to
species downstream), habitat services such as
providing spawning areas for recreationally or
commercially important species in downstream
waters, and the extent to which the tributary and
adjacent wetlands perform functions related to

See, generally, 126 S. Ct. at 2248-53; see also 126 S. Ct. at 2249
(“Just as control over the non-navigable parts of a river may be
essential or desirable in the interests of the navigable portions,
so may the key to flood control on a navigable stream be found in
whole or in part in flood control on its tributaries….”) (citing to
Oklahoma ex rel. Phillips v. Guy F. Atkinson Co., 313 U.S. 508,
524-25(1941)).

35

Appendix A-66
maintenance of downstream water quality such as
sediment trapping.
After assessing the flow characteristics and
functions of the tributary and its adjacent wetlands,
the agencies will evaluate whether the tributary and
its adjacent wetlands are likely to have an effect that
is more than speculative or insubstantial on the
chemical, physical, and biological integrity of a
traditional navigable water. As the distance from the
tributary to the navigable water increases, it will
become increasingly important to document whether
the tributary and its adjacent wetlands have a
significant nexus rather than a speculative or
insubstantial nexus with a traditional navigable
water.
Accordingly, Corps districts and EPA regions
shall document in the administrative record the
available information regarding whether a tributary
and its adjacent wetlands have a significant nexus
with a traditional navigable water, including the
physical indicators of flow in a particular case and
available information regarding the functions of the
tributary and any adjacent wetlands. The agencies
will explain their basis for concluding whether or not
the tributary and its adjacent wetlands, when
considered together, have a more than speculative or
insubstantial effect on the chemical, physical, and
biological integrity of a traditional navigable water.
Swales or erosional features (e.g., gullies, small
washes characterized by low volume, infrequent, or
short duration flow) are generally not waters of the
United States because they are not tributaries or they
do not have a significant nexus to downstream

Appendix A-67
traditional navigable waters. In addition, ditches
(including roadside ditches) excavated wholly in and
draining only uplands and that do not carry a
relatively permanent flow of water are generally not
waters of the United States because they are not
tributaries or they do not have a significant nexus to
downstream traditional navigable waters.36 Even
when not jurisdictional waters subject to CWA §404,
these geographic features (e.g., swales, ditches) may
still contribute to a surface hydrologic connection
between an adjacent wetland and a traditional
navigable water. In addition, these geographic
features may function as point sources (i.e.,
“discernible, confined, and discrete conveyances”),
such that discharges of pollutants to other waters
through these features could be subject to other CWA
regulations (e.g., CWA §§ 311 and 402).37
Certain ephemeral waters in the arid west are
distinguishable from the geographic features
described above where such ephemeral waters are
tributaries and they have a significant nexus to
downstream traditional navigable waters. For
example, in some cases these ephemeral tributaries
may serve as a transitional area between the upland
environment and the traditional navigable waters.
During and following precipitation events, ephemeral
tributaries collect and transport water and sometimes
sediment from the upper reaches of the landscape
downstream to the traditional navigable waters.
These ephemeral tributaries may provide habitat for
wildlife and aquatic organisms in downstream
36

See 51 Fed. Reg. 41206, 41217 (Nov. 13, 1986).

37

33 U.S.C. § 1362(14).

Appendix A-68
traditional navigable waters. These biological and
physical processes may further support nutrient
cycling, sediment retention and transport, pollutant
trapping and filtration, and improvement of water
quality, functions that may significantly affect the
chemical, physical, and biological integrity of
downstream traditional navigable waters.
Documentation
As described above, the agencies will assert CWA
jurisdiction over the following waters without the
legal obligation to make a significant nexus
determination: traditional navigable waters and
wetlands adjacent thereto, non-navigable tributaries
that are relatively permanent waters, and wetlands
with a continuous surface connection with such
tributaries. The agencies will also decide CWA
jurisdiction over other non-navigable tributaries and
over other wetlands adjacent to non-navigable
tributaries based on a fact-specific analysis to
determine whether they have a significant nexus with
traditional navigable waters. For purposes of CWA
§404 determinations by the Corps, the Corps and EPA
are developing a revised form to be used by field
regulators for documenting the assertion or
declination of CWA jurisdiction.
Corps districts and EPA regions will ensure that
the information in the record adequately supports any
jurisdictional determination. The record shall, to the
maximum extent practicable, explain the rationale for
the determination, disclose the data and information
relied upon, and, if applicable, explain what data or
information received greater or lesser weight, and
what professional judgment or assumptions were used

Appendix A-69
in reaching the determination. The Corps districts
and EPA regions will also demonstrate and document
in the record that a particular water either fits within
a class identified above as not requiring a significant
nexus determination, or that the water has a
significant nexus with a traditional navigable water.
As a matter of policy, Corps districts and EPA regions
will include in the record any available information
that documents the existence of a significant nexus
between a relatively permanent tributary that is not
perennial (and its adjacent wetlands if any) and a
traditional navigable water, even though a significant
nexus finding is not required as a matter of law.
All pertinent documentation and analyses for a
given jurisdictional determination (including the
revised form) shall be adequately reflected in the
record and clearly demonstrate the basis for asserting
or declining CWA jurisdiction.38 Maps, aerial
photography, soil surveys, watershed studies, local
development plans, literature citations, and
references from studies pertinent to the parameters
being reviewed are examples of information that will
assist staff in completing accurate jurisdictional
determinations. The level of documentation may vary
among projects. For example, jurisdictional

38 For jurisdictional determinations and permitting decisions,
such information shall be posted on the appropriate Corps
website for public and interagency information.

Appendix A-70
determinations for complex projects may require
additional documentation by the project manager.
s/Benjamin H. Grumbles
Benjamin H. Grumbles
Assistant Administrator
for Water
U.S. Environmental
Protection Agency

s/John Paul Wondley, Jr.
John Paul Wondley, Jr.
Assistant Secretary of
the Army (Civil Works)
Department of the Army

Appendix B-1
Filed March 31, 2019
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
CHANTELL and MICHAEL
SACKETT,
Plaintiffs,

Case No.
2:08-cv-00185-EJL
ORDER

v.
UNITED STATES
ENVIRONMENTAL
PROTECTION AGENCY;
et al.,
Defendants.
INTRODUCTION
Pending before the Court in the above entitled
matter are Plaintiffs’ Motion to Strike, Plaintiffs’
Request for Judicial Notice, and the parties’ CrossMotions for Summary Judgment. (Dkt. 70, 103, 105.)
The matters are ripe for the Court’s consideration.
Having fully reviewed the record herein, the Court
finds that the facts and legal arguments are
adequately presented in the briefs and record. In the
interest of avoiding further delay, and because the
Court conclusively finds that the decisional process
would not be significantly aided by oral argument, the
Motions are decided on the record without oral
argument.

Appendix B-2
FACTUAL AND PROCEDURAL BACKGROUND
Plaintiffs Chantell and Michael Sackett filed the
Complaint in this matter seeking declaratory and
injunctive relief under the Clean Water Act (CWA), 33
U.S.C. § 1251, et seq., and the Administrative
Procedure Act (APA), 5 U.S.C. § 551, et seq. (Dkt. 1,
98.) The claims are made against Defendants the
United States Environmental Protection Agency
(EPA) and the EPA Administrator. The parties
dispute whether certain real property owned by the
Sacketts in northern Idaho contains wetlands subject
to the CWA.
The Sacketts own an undeveloped 0.63 acre dirt
lot parcel located at 1604 Kalispell Bay Road in
Bonner County, Idaho north of Priest Lake. The
Sacketts purchased the lot in 2004 intending to build
a home. In May of 2007, the Sacketts had obtained
building permits from Bonner County and began
preparations for building by removing material from
the lot and placing sand and gravel on the building
site to create a stable grade. EPA officers came to the
site on May 3, 2007 and stated they believed the site
contained wetlands subject to CWA regulations and
directed that work on the home stop until a permit
was obtained from the United States Army Corps of
Engineers (USACE). On November 26, 2007, the EPA
issued its initial Administrative Compliance Order
(Compliance Order) formally concluding the Sacketts’
property contains wetlands subject to CWA
regulations and that the Sacketts had illegally placed
fill material on the property. (Dkt. 1, Att. A) (AR 23.)
The Compliance Order directed Plaintiffs to remove
the fill material by April 15, 2008 and conduct other

Appendix B-3
restoration measures by April 30, 2008.
Compliance Order stated that failure to comply
subject the Plaintiffs to administrative and
penalties of up to $11,000 and $32,500 per
respectively.

The
may
civil
day

Plaintiffs responded to the Compliance Order on
April 1, 2008 contending the property is not a wetland
nor subject to CWA jurisdiction. (Dkt. 1, Att. B) (AR
25.) The EPA disagreed with Plaintiffs’ position but
extended the deadlines for compliance to May 2008.
(Dkt. 1, Att. C, D) (AR 26.)
On April 28, 2008, before the compliance deadline
expired, Plaintiffs filed this action challenging the
EPA’s determination that the property is a wetland
subject to CWA jurisdiction and seeking to declare the
EPA’s Compliance Order and amendments null and
void. (Dkt. 1.) Thereafter, the EPA further extended
the compliance deadlines.
On May 15, 2008, the EPA conducted a site visit
to obtain additional research regarding its jurisdiction
of the site. Following the site visit, but on the same
day, the EPA issued an Amended Administrative
Compliance Order (Amended Compliance Order)
again concluding that the Sacketts’ property contains
wetlands subject to the CWA and directing Plaintiffs
to remove the fill materials and replace the wetland
soils. (AR 32.)
Defendants filed a Motion to Dismiss which was
granted but later reversed on appeal and remanded
for further proceedings. (Dkt. 21, 48, 49.) The case was
then stayed at the request of the parties to facilitate
settlement negotiations. (Dkt. 55, 57.) Those

Appendix B-4
negotiations were unsuccessful and the case was
reopened and a new scheduling order was entered.
(Dkt. 61.)
Plaintiffs then supplemented their Complaint
adding new related facts which occurred after the
operative pleading was filed. (Dkt. 88, 90, 94, 98, 101.)
Plaintiffs also filed a Motion to Strike portions of the
Administrative Record, a Request for Judicial Notice,
and Notices of Supplemental Authority. (Dkt. 70, 76,
86, 113, 115.) Both sides have filed Cross-Motions for
Summary Judgment. (Dkt. 103, 105.) The Court finds
as follows.
DISCUSSION
1.

Motion to Strike Materials From the
Administrative Record

Judicial review pursuant to the APA is based
solely on the “whole” administrative record in
existence at the time of the agency’s decision. 5 U.S.C.
§ 706; Camp v. Pitts, 411 U.S. 138, 142 (1973); Friends
of the Earth v. Hintz, 800 F.2d 822, 828 (9th Cir. 1986).
“The whole administrative record…consists of all
documents and materials directly or indirectly
considered by agency decision-makers and includes
evidence contrary to the agency’s position.” Thompson
v. United States Dept. of Labor, 885 F.2d 551, 555 (9th
Cir. 1989) (internal citation omitted). That is to say,
“‘[t]he whole record’ includes everything that was
before the agency pertaining to the merits of the
decision.” Portland Audubon Society v. Endangered
Species Comm., 984 F.2d 1534, 1548 (9th Cir. 1993).

Appendix B-5
This review is “generally limited to examination
of the administrative record as it existed when the
agency made the relevant decision.” Cascadia
Wildlands Proj. v. United States Forest Serv., 386
F.Supp.2d 1149, 1158 (D.Or. 2005) (citations omitted);
see also Citizens to Preserve Overton Park, 401 U.S. at
419 (Review is “based on the full administrative
record that was before the Secretary at the time he
made his decision.”); Camp v. Pitts, 411 U.S. at 142;
Southwest Ctr. for Biological Diversity v. United
States Forest Serv., 100 F.3d 1443, 1450 (9th Cir.
1996); San Luis & Delta-Mendota Water Auth. v.
Jewell, 747 F.3d 581, 602 (9th Cir. 2014) (“review is
limited to ‘the administrative record already in
existence, not some new record made initially in the
reviewing court.’”).1
Certain “narrow exceptions” allow supplementation of the administrative record with extra-record
evidence in a few limited circumstances:
(1) supplementation is necessary to determine
if the agency has considered all factors and
explained its decision; (2) the agency relied on
documents not in the record; (3) supplementation is needed to explain technical terms or
complex subjects; or (4) plaintiffs have shown
bad faith on the part of the agency.

1 Plaintiffs’ Notice of Supplemental Authority argues San Luis
requires exclusion of post-hoc expert testimony. (Dkt. 86.)
Defendants maintain judicial review is based on the
administrative record and the agency can rely upon its experts.
(Dkt. 87.) The Court reviewed these filings and caselaw and has
applied the legal standards as stated herein.

Appendix B-6
Fence Creek Cattle Co. v. United States Forest Serv.,
602 F.3d 1125, 1131 (9th Cir. 2010); Lands Council v.
Powell, 395 F.3d 1019, 1030 (9th Cir. 2005). Although
post-decision information may be admissible to the
extent it can be “deemed a clarification or an
explanation of the original information before the
[a]gency,” the Ninth Circuit has made clear that
parties may not use “post-decision information as a
new rationalization either for sustaining or attacking
the agency’s decision.” Hintz, 800 F.2d at 829 (quoting
Assn. of Pac. Fisheries v. EPA, 615 F.2d 794, 811–12
(9th Cir. 1980)). Material outside the record may,
however, be considered when it is needed to explain
“technical terms or complex subject matter.” Sw. Ctr.
Biological Diversity, 100 F.3d at 1450; see also Bunker
Hill Co. v. EPA, 572 F.2d 1286, 1292 (9th Cir. 1977)
(permitting extra-record evidence because it was
“merely explanatory of the original record” and “[n]o
new rationalization of the [agency’s decision] was
offered”); Asarco, Inc. v. EPA, 616 F.2d 1153, 1160 (9th
Cir. 1980) (Consideration of outside materials only for
background information or to ascertain whether the
agency “fully explicated its course of conduct or
grounds of decision.”).
The administrative record submitted by the
government is entitled to a presumption of
completeness which can be rebutted by clear evidence
to the contrary. Bar MK Ranches v. Yuetter, 994 F.2d
735, 740 (10th Cir. 1993); McCrary v. Gutierrez, 495
F.Supp. 2d 1038, 1041 (N.D. Cal. 2007) (“An agency’s
designation and certification of the administrative
record is…entitled to a presumption of administrative
regularity.”). Plaintiffs have the burden of rebutting
the presumption of completeness by clear evidence.

Appendix B-7
Bar MK, 994 F.2d at 740; Pinnacle Armor, Inc. v.
United States, 923 F.Supp.2d 1226, 1232 (E.D. Cal.
2013).
On January 15, 2013, the Defendants filed the
Administrative Record in this case. (Dkt. 62.)
Plaintiffs seek to strike the following materials from
the Administrative Record: 1) the July 2008
Memorandum, 2) the June 2008 StreamStats data,
and 3) pre-decisional information.2 Plaintiffs argue
these materials were not considered by, within the
knowledge of, nor before the agency decision-makers
when the May 15, 2008 Amended Compliance Order
was issued and, therefore, should be stricken. (Dkt.
70, 84.) Defendants maintain the items are properly
included in the Administrative Record because the
information was known to and considered by, either
directly or indirectly, the decision-makers in issuing
the Amended Compliance Order. (Dkt. 73.)
A. The July 2008 Memo
EPA wetland ecologist John Olson conducted the
May 15, 2008 site visit of the Plaintiffs’ property and
neighboring properties to determine whether the
property contained wetlands. (AR 31.) At the
conclusion of the site visit, late in the day on
May 15th, Mr. Olson telephoned the EPA’s Regional
Counsel, Ankur Tohan, in Seattle, Washington to
relay his findings and conclusions that the property
2 Plaintiffs’ originally sought to strike fourteen documents but
have withdrawn their objections to seven of the documents,
namely: 3, 4, 8, 29-31, and 33. (Dkt. 70 and Dkt. 84 at 4, n. 1.)
Plaintiffs now seek to strike only documents 1, 2, 5-7, 34, and 35.
(Dkt. 70.) The Court previously took the Motion to Strike under
advisement. (Dkt. 94.)

Appendix B-8
did in fact contain wetlands and was subject to CWA
jurisdiction. (Dkt. 73-3, Dec. Olson.) On the same day,
Mr. Tohan discussed the matter with the then Acting
Director of EPA’s Office of Ecosystems, Tribal, and
Public Affairs, Richard Parkin, who ultimately signed
the Amended Compliance Order. (Dkt. 73-2, Dec.
Parkin) (Dkt. 73-3.) The Declaration of Michael
Szerlog, Mr. Olson’s supervisor, further establishes
that Mr. Olson’s findings from the site visit were
relayed to Mr. Parkin. (Dkt. 73-1, Dec. Szerlog.)
Mr. Parkin’s Declaration confirms he was briefed by
staff and signed the Amended Compliance Order on
May 15, 2008 “based on the recommendations of my
staff.” (Dkt. 73-2 at ¶ 4.)
Thereafter, on July 1, 2008, Mr. Olson completed
a report (the “July 2008 Memo”) memorializing his
conclusions from the site visit. The Government
included the July 2008 Memo in the Administrative
Record. (AR 35.)
Plaintiffs argue the July 2008 Memo contains new
after-the-fact data and rationales to justify the
Amended Compliance Order and, therefore, should
not be included in the Administrative Record. (Dkt.
70, 84.) Defendants maintain the July 2008 Memo is
properly included because it summarizes Mr. Olson’s
May 15, 2008 site inspection and conclusions and is
based on information either learned during the
inspection or Mr. Olson’s general knowledge and
experience all of which was considered when deciding
to issue the Amended Compliance Order. (Dkt. 73.)
The Court finds the July 2008 Memo is properly
included in the Administrative Record.

Appendix B-9
The July 2008 Memo is clearly a formalized
summation of Mr. Olson’s field notes which were made
contemporaneously with the May 15, 2008 site
inspection. (AR 31, 33, 35.) Mr. Olson relayed his
findings and conclusions from the site visit to his
superiors who, in turn, decided to issue the Amended
Compliance Order based on those findings. (Dkt. 73-1,
73-2, 73-3.) The information contained and referred to
in the July 2008 Memo was available at the time of
the site inspection, part of Mr. Olson’s general
knowledge, and was considered by Mr. Olson as well
as the EPA’s decision-makers when they issued the
Amended Compliance Order. Thompson, 885 F.2d at
555; Nat. Res. Def. Council v. Gutierrez, No. C 01-0421
JL, 2008 WL 11358008, at *6 (N.D. Cal. Jan. 14, 2008)
(interpreting “all documents directly or indirectly
considered” to encompass the underlying work and
recommendations of agency subordinates). For these
reasons, the Court denies the Motion to Strike the
July 2008 Memo. Regardless, even without the July
2008 Memo, the EPA’s determination in this case is
supported by the record and was not arbitrary or
capricious.
If the July 2008 Memo is included in the
Administrative Record, Plaintiffs request to be
allowed to submit a Declaration from Ray Kagel of his
expert opinion regarding the EPA’s determination.
(Dkt. 84 at 9.) Defendants oppose the request, arguing
the Declaration is Mr. Kagel’s interpretation of the
EPA’s decision and characterization of certain
documents and not properly included in the
Administrative Record. (Dkt. 85.) The Court grants
Plaintiffs’ request.

Appendix B-10
Mr. Kagel’s Declaration was completed May 24,
2013, years after the EPA’s May 15, 2008 site visit,
Amended Compliance Order, and July 2008 Memo.
(Dkt. 84-1, Dec. Kagel.) It therefore is not part of the
Administrative Record as material that was before the
decision-maker at the time the Amended Compliance
Order was issued. Sw. Ctr. Biological Diversity, 100
F.3d at 1450; Wildearth Guardians v. United States
Forest Serv., 713 F.Supp.2d 1243, 1256 (D. Colo. 2010)
(“[A] party moving to complete the record must show
with clear evidence the context in which materials
were considered by decision makers in the relevant
decision making process.”). The Declaration does,
however, fall within the “relevant factors” and
technical/scientific explanation exceptions and may be
properly considered for those limited purposes. Fence
Creek Cattle, 602 F.3d at 1030.
Extra-record evidence may be admitted under the
relevant factors exception “only to help the court
understand whether the agency complied with the
APA’s requirement that the agency’s decision be
neither arbitrary nor capricious.” See San Luis, 747
F.3d at 993. “[T]he exception does not permit district
courts to use extra-record evidence to judge the
wisdom of the agency’s action” or as “a basis for
questioning the agency’s scientific analysis or
conclusions.” Id.; see also Asarco, 616 F.2d at 1160
(“Consideration of [extra-record] evidence to
determine the correctness or wisdom of the agency’s
decision is not permitted.”). Similarly, supplemental
materials necessary to explain technical terms or
complex subject matter may also be considered. San
Luis, 747 F.3d 993.

Appendix B-11
In his Declaration, Mr. Kagel discusses the
importance of following the USACE’s 1987 Wetlands
Delineation Manual’s methodology when making a
wetland determination and states the EPA failed to do
so in this case. (Dkt. 84-1, Dec. Kagel.) Specifically,
Mr. Kagel states the EPA did not properly collect data
concerning the soil’s surface saturation, inundation,
or ponding; excavate a soil pit to examine the soil
saturation; or physically examine the property to
determine if it had a peat layer at least 30 centimeters
thick. The Court finds that information in the
Declaration falls within the two narrow exceptions by
providing background material and explanations of
technical terms relating to the Court’s evaluation of
the integrity of the EPA’s analysis in this case as to
whether it considered all of the relevant factors and
explained its decision. Therefore, the Court grants
Plaintiffs request and has considered Mr. Kagel’s
Declaration for those limited purposes. The Court has
not used Mr. Kagel’s Declaration as a basis for
questioning the correctness or wisdom of the EPA’s
analysis or conclusions. Id.
B. The June 2008 StreamStats Data
Plaintiffs seek to strike the June 23, 2008
StreamStats Ungaged Site Report from the
Administrative Record, arguing it was not within the
EPA’s general or specific knowledge and is post hoc
information. (Dkt. 84 at 4.)
The July 2008 Memo included flow data for an
unnamed stream obtained from the United States
Geological Survey’s (USGS) web-based Geographic
Information System site called “StreamStats.” (AR 35
at 344.) Defendants included the StreamStats Report

Appendix B-12
in the Administrative Record. (AR 34.) While the
StreamStats Report was generated after the May 15,
2008 site visit, the Court finds the information used
from StreamStates in the July 2008 Memo — i.e. the
estimate mean annual flow data for an unnamed
stream — was within the EPA’s indirect or direct
general knowledge at the time it issued the Amended
Compliance Order.
The StreamStats’ data is an estimate of the
stream’s annual flow, not flow specific to June 23,
2008. The information simply provides detail to
Mr. Olson’s knowledge, field observations from the
site visit, and conclusion that without the Kalispell
Bay Road and the artificially constructed channel, the
entire flow from the unnamed stream would have
flown out of the south end of the Plaintiffs’ property
into Priest Lake. (AR 31, 34.) Regardless, even
without the actual flow data from the StreamStats
Report, Mr. Olson’s field notes clearly demonstrate
that he reached his conclusions regarding the stream’s
flow from the south end of the property during the site
visit on May 15, 2008 and his Declaration establishes
that he relayed the same to the decision-makers. (Dkt.
73-3) (AR 31.)
C. The Pre-Decisional Information in the
July 2008 Memo
Plaintiffs seek to strike five documents from the
Administrative Record which, they argue, are cited
and/or discussed only in the July 2008 Memo but there
is no indication the materials were considered by the
decision-maker prior to issuing the Amended
Compliance Order. (Dkt. 70, 84.) Defendants argue
the documents are properly included because they

Appendix B-13
were available to and considered, either directly or
indirectly, by the decision-makers prior to and/or on
May 15, 2008. (Dkt. 73.)
The documents in question are the 1995
Ecosystem Conservation Strategy for the Idaho
Panhandle Peatlands, a 1995 Groundwater ThesisFreeman, the Priest River Subbasin Assessment and
Total Maximum Daily Load, the 2005 Idaho Wetland
Conservation Prioritization Plan, and a Fisheries
Management Plan for 2007 to 2012. (AR 1, 2, 5-7.) The
materials are cited in the July 2008 Memo. (AR 35.)
Mr. Olson states he consider these materials, along
with other information, in reaching his conclusions
which he conveyed to his supervisors who made the
final decision to issue the Amended Compliance
Order. (Dkt. 73.)
The Court finds these documents are properly
included in the Administrative Record. They existed
prior to and were either directly or indirectly relied
upon by the EPA when it made its decision to issue
the Amended Compliance Order. (Dkt. 73.) The
Motion to Strike is denied as to these materials.
Relatedly, the parties agree to include two pages
of the concluding section from the 1995 Groundwater
Thesis-Freeman in the Administrative Record. (Dkt.
84 at 9) (Dkt. 85 at 2, n. 2.) The Administrative Record
is therefore supplemented with those additional
pages. (Dkt. 84, Att. B.)
2.

Requests for Judicial Notice

Plaintiffs have filed a Request asking the Court to
take judicial notice of 1) the 1987 USACE’s Wetland

Appendix B-14
Delineation Manual (1987 Manual) and 2) the May
2010 Regional Supplement to the 1987 Manual. (Dkt.
76, 77.) The Defendants do not oppose the request.
(Dkt. 85 at 2, n. 1.) Therefore, the Request for Judicial
Notice is granted.
3.

Cross-Motions for Summary Judgment

In their Cross-Motions for Summary Judgment,
the parties dispute whether the EPA correctly
concluded that the Plaintiffs’ property contains
wetlands that are “waters of the United States”
subject to CWA jurisdiction. Plaintiffs argue the
EPA’s determination is not in accord with its
guidelines and manuals and/or not supported by the
Administrative Record. (Dkt. 103.) Defendants
maintain the record supports their conclusion. (Dkt.
105.)
A. The Standard of Review
Judicial review of the EPA’s decision in this case
is governed by the APA, under which the Court may
set aside an agency’s decision only if it is “arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law.” 5 U.S.C. § 706(2)(A). A decision
is arbitrary and capricious where the agency “relied
on factors Congress did not intend it to consider,
entirely failed to consider an important aspect of the
problem, or offered an explanation that runs counter
to the evidence before the agency or is so implausible
that it could not be ascribed to a difference in view or
the product of agency expertise,” Lands Council v.
McNair, 629 F.3d 1070, 1074 (9th Cir. 2010) (citation
omitted).

Appendix B-15
“The scope of review under the ‘arbitrary and
capricious’ standard is narrow and a court is not to
substitute its judgment for that of the agency.” Motor
Vehicle Mfrs. Assn. v. State Farm Mut. Auto. Ins. Co.,
463 U.S. 29, 43. An agency’s decision is valid where it
considered the relevant factors and articulated a
satisfactory explanation for its action, including a
rational connection between the facts found and the
agency’s conclusions. Ctr. for Biological Diversity v.
Natl. Highway Traffic Safety Admin., 538 F.3d 1172,
1193 (9th Cir. 2008); Nw. Ecosystem Alliance v. United
States Fish & Wildlife Serv., 475 F.3d 1136, 1145 (9th
Cir. 2007) (citation omitted). The Court gives the most
deference when reviewing an agency’s technical
analysis, judgment, and scientific determinations on
matters within its expertise. Nat. Res. Defense
Council, Inc. v. Pritzker, 828 F.3d 1125, 1139 (9th Cir.
2016).
It
does
not,
however,
“rubberstamp...administrative decisions that [we] deem
inconsistent with a statutory mandate or that
frustrate the congressional policy underlying a
statute.” Id. (quoting Ocean Advocates v. United
States Army Corps of Engineers, 402 F.3d 846, 859
(9th Cir. 2005)). Additionally, agencies are entitled to
deference in their interpretation of their own
regulations. Siskiyou Reg. Educ. Proj. v. United States
Forest Serv., 565 F.3d 545, 554-555 (9th Cir. 2009)
(citations omitted). The Court’s review of an agency’s
regulatory interpretation is to ensure the
interpretation is not plainly erroneous or inconsistent
with the regulation, even if the regulation is
susceptible to more than one meaning.
APA claims may be resolved via summary
judgment pursuant to the standard set forth in Rule

Appendix B-16
56. See Nw. Motorcycle Assn. v. United States Dept.
Agric., 18 F.3d 1468, 1472 (9th Cir. 1994). Summary
judgment is appropriate where “there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” See Fed. R.
Civ. P. 56(a). The APA requires that the agency action
be upheld unless it is “arbitrary, capricious, an abuse
of discretion, or otherwise not in accordance with law.”
League of Wilderness Defs. Blue Mnts. Biodiversity
Proj. v. Allen, 615 F.3d 1122, 1130 (9th Cir. 2010)
(quoting 5 U.S.C. § 706(2)(A)).
B. The Clean Water Act
The CWA was enacted to “restore and maintain
the chemical, physical, and biological integrity of the
Nation’s waters” and prohibits the discharge of
pollutants, including dredged or fill material, into
“navigable waters” without a permit unless otherwise
authorized under the CWA. 33 U.S.C. §§ 1251(a) and
1344. Section 404 of the CWA prohibits the discharge
of “dredged or fill material” into navigable waters
without a permit issued by the USACE. 33 U.S.C.
§ 1344. The EPA is authorized to issue administrative
compliance orders requiring violators to comply with
certain provisions of the CWA. 33 U.S.C. § 1319.
Violators are also subject to significant criminal and
civil penalties. Id. The EPA has jurisdiction under the
CWA over “navigable waters.”
The CWA defines “navigable waters” as “the
waters of the United States, including the territorial
seas.” 33 U.S.C. § 1362(7). Agency regulations further
interpret “waters of the United States” to generally
include:

Appendix B-17
• All traditional navigable waters, interstate
waters, and the territorial seas;
• All impoundments of jurisdictional waters;
• All “other waters” such as lakes, ponds, and
sloughs the “use, degradation or destruction
of which could affect interstate or foreign
commerce”;
• Tributaries of traditional navigable waters,
interstate waters, the territorial seas,
impoundments, or “other waters”; and,
• Wetlands adjacent to traditional navigable
waters, interstate waters, the territorial seas,
impoundments, tributaries, or “other waters”
(other than waters that are themselves
wetlands).
33 C.F.R. § 328.3(a)(1)-(7); 40 C.F.R. § 230.3.3

3 In 2015, USACE and EPA proposed The Clean Water Rule (the
“2015 Rule”) which amended the definition of “waters of the
United States.” See 80 Fed. Reg. 37,054, 2015 WL 3930456
(Jun. 29, 2015) (to be codified at 33 C.F.R. § 328). The 2015 Rule
and its effective date have been the subject of many legal
challenges. See Natl. Assn. of Mfrs. v. Dept. of Defense, 138 S.Ct.
617 (2018); Puget Soundkeeper Alliance, et al. v. Andrew Wheeler,
et al., No. C15-1342-JCC (W.D. Wash. Nov. 26, 2018). The 2015
Rule is currently subject to a preliminary injunction in 28 states
including Idaho. 84 Fed. Reg. 4154-01, 2019 WL 587080 (Feb. 14,
2019). Therefore, the pre-2015 Rule Regulations and Guidance
are currently in effect in Idaho.

Appendix B-18
C. The EPA Properly Concluded the
Property Contains Wetlands Subject
to CWA Jurisdiction
The EPA concluded the Sacketts violated § 301 of
the CWA finding they are persons who discharged a
pollutant from a point source into waters of the United
States without the requisite permit. (AR 32.)
Specifically, the EPA determined the Plaintiffs’
property is subject to the CWA because it contains
wetlands adjacent to Priest Lake, a traditionally
“navigable water,” and, additionally, their property is
wetland adjacent to a tributary and similarly situated
to other wetlands and has a significant nexus to Priest
Lake. (AR 32.)
Plaintiffs challenge the EPA’s determinations
arguing their property is not a wetland subject to the
CWA and, regardless, it is exempt from jurisdiction.
(Dkt. 103, 109.) Defendants maintain the EPA’s
conclusions are correct. (Dkt. 105, 112.) For the
reasons stated below, the Court finds the EPA’s
conclusions and determinations were not arbitrary or
capricious and are supported by the record.
1.

Plaintiffs’ Property Contains
Wetlands

Wetlands are defined as “those areas that are
inundated or saturated by surface or groundwater at
a frequency and duration sufficient to support, and
that under normal circumstances do support, a
prevalence of vegetation typically adapted for life in
saturated soil conditions” and they “generally include
swamps, marshes, bogs, and similar areas.” 33 C.F.R.
§ 328.3; 40 C.F.R. §§ 122.2 & 232.2; (AR 32.)

Appendix B-19
Plaintiffs argue the Administrative Record does
not support the EPA’s wetlands delineation here and
that the EPA failed to use the diagnostic criteria
required by the 1987 Manual. Defendants maintain
the EPA’s wetlands determination is supported in the
record and in accord with the 1987 Manual. The Court
finds the EPA’s determination was not arbitrary or
capricious and is supported by the record.
The EPA’s determinations and conclusions were
made consistent with the 1987 Manual. (Dkt. 76-1, Ex.
A) (Dkt. 77.) The 1987 Manual describes technical
guidelines and methods using a multiparameter
approach to identify and delineate wetlands for
purposes of § 404 of the CWA. (Dkt. 76-1, Ex. A at vii,
1, 9-10.) When making wetland determinations
“under normal circumstances,” the manual directs the
agency to consider and look for positive evidence of
three parameters/indicators: hydrophytic vegetation,
hydric soils, and wetland hydrology. (Dkt. 76-1, Ex. A
at v, 3.) Where, however, land has been altered by
recent human activities or natural events, the 1987
Manual provides alternative methods for making
wetlands determinations. (Dkt. 76-1, Ex. A at 4, 7382.) The EPA properly interpreted and employed the
1987 Manual’s alternate wetlands determination
method in this case.
Plaintiffs’ property had clearly been altered due to
recent human activities — namely the placement of
fill material and possibly removal of vegetation and/or
construction of a drainage system. (AR 10, 11, 12, 15,
21, 31, 35.) The EPA therefore correctly used the
alterative procedures to examine the property for the
presence of the three wetlands parameters in making

Appendix B-20
its determination. (Dkt. 76-1, Ex. A at 75-82) (removal
of vegetation: aerial photography, onsite inspection,
previous site inspections, adjacent vegetation, public);
(soils: recent presence of fill material, removal of
surface soil, soil surveys, prior soil data); (hydrology:
ditching/channels/diversions, prior hydrology of the
area, field indicators, aerial photography, historical
records, public) (AR 10, 11, 15, 31, 33, 35.). The EPA
conducted a site-specific field examination of the
property and its findings and conclusions were made
in accord with the applicable standards and
procedures for making wetlands determinations. Id.
Moreover, the EPA explained its conclusions and fully
considered all of the relevant factors consistent with
making the wetlands determination including its
findings concerning the presence of the wetlands
indicators and parameters as directed by the 1987
Manual.
The EPA’s determination that Plaintiffs’ property
is a wetland is reasonable and supported by the
materials in the Administrative Record. Plaintiffs’
property was originally part of a large wetland
complex called the Kalispell Bay Fen. (AR 10, 12, 29,
31, 35, 39.) That complex is now divided by Kalispell
Bay Road. (AR 10, 11, 15, 21, 31, 35.) North of the
road, the wetland remains mainly undisturbed. (AR
10.) Plaintiffs’ property is located south of the road
and has now been mostly filled and removed of
vegetation. (AR 10, 11, 15.) During the EPA’s field
visits to Plaintiffs’ property, however, the EPA
personnel were still able to observe the presence of the
three wetlands indicators. (AR 15, 31, 35.) The areas
of the property where native soil had been removed
but not yet filled were inundated/saturated/ponded

Appendix B-21
evidencing that the hydrology of the site was
consistent with wetlands. (AR 15, 31.) EPA inspectors
also observed strips of land on the property that had
not yet been filled which revealed the presence of
wetland soils. (AR 10, 11, 15, 21, 31.) There is also
evidence of a shallow subsurface flow between the
wetlands north of Kalispell Bay Road and the
Plaintiffs’ property. (AR 31, 35.) Further, the land
abutting Plaintiffs’ property to the east and west are
properties with evident wetland characteristics;
including wetland vegetation. (AR 10, 15, 21.) The
land north of Kalispell Bay Road also contains
wetland vegetation. (AR 15, 31.) These findings
support the EPA’s conclusion that Plaintiffs’ property
is a wetland.
Based on the foregoing, and as discussed
elsewhere in this Order, the Court finds the EPA’s
determination that the property contains wetlands
was not arbitrary or capricious and is supported by
the materials in the Administrative Record.
2.

Plaintiffs’ Property is Adjacent to a
Traditional Navigable Water

Defendants argue Plaintiffs’ property is a “water
of the United States” because it is a wetland adjacent
to a traditional navigable body of water; namely,
Priest Lake. Plaintiffs contend their property is not
adjacent to Priest Lake because it is separated by dry
land containing a road and a developed residential
neighborhood. Plaintiffs further assert the EPA’s
interpretation of the definition and regulations for
adjacency are erroneous and not entitled to deference.

Appendix B-22
The Administrative Record supports the EPA’s
determination that Priest Lake is a traditional
navigable water. A “traditional navigable water”
includes “[a]ll waters which are currently used, were
used in the past, or may be susceptible to use in
interstate or foreign commerce, including all waters
which are subject to the ebb and flow of the tide.” 33
C.F.R. § 328.3(a)(1). Priest Lake has been and is used
in interstate commerce. (AR 31, 35.)
The Administrative Record also supports the
EPA’s conclusion that Plaintiffs’ land is adjacent to
Priest Lake. “Adjacent” is defined as “bordering,
contiguous, or neighboring” a water previously
identified as a “water of the United States” including
waters separated by “constructed dikes or barriers,
natural river berms, beach dunes, and the like.” 33
C.F.R. § 328.3(c)(1); 40 C.F.R. §§ 230.3 & 232.2. The
EPA interprets that definition using an EPA
Guidance Document issued on December 2, 2008
(Guidance Document) which applies Supreme Court
caselaw to the definition of “waters of the United
States.” See Clean Water Act Jurisdiction Following
the U.S. Decision in Rapanos v. United States &
Carabell v. United States, (Dec. 2, 2008).4

4

Plaintiffs’ Second Notice of Supplemental Authority argues an
October 2016 Regulatory Guidance Letter (No. 16-01) supersedes
prior guidance documents and is binding on the USACE. (Dkt.
115.) The Court disagrees. The current guidance document is
dated December 2, 2008 and can be found at:
https://www.epa.gov/sites/production/files/2016-02/documents/
cwa_jurisdiction_following_rapanos120208.pdf.

Appendix B-23
Under the Guidance Document, wetlands are
considered “adjacent” where one of three criteria are
satisfied: 1) they have an unbroken surface or shallow
sub-surface connection to jurisdictional waters, even
if intermittent; 2) they are physically separated from
jurisdictional waters by man-made barriers and the
like; or 3) their proximity to a jurisdictional water is
reasonably close so as to support a science-based
inference of an ecological interconnection. See
Guidance Document at 5-6. The EPA argues all three
criteria are present here. The Court finds the EPA’s
interpretation, application, and determination of
“adjacency” as to the Plaintiffs’ property here was
reasonable and supported by the record.
As to the first criteria, the record supports EPA’s
conclusion that there is a shallow subsurface
connection between Plaintiffs’ wetlands and Priest
Lake. (AR 11, 15, 21, 31, 35.) The field inspections
showed Plaintiffs’ property is elevated above Priest
Lake with a sufficient flow-gradient slope and highly
permeable soil making it reasonable to conclude water
flows from Plaintiffs’ property downgradient to Priest
Lake. The field notes further show the presence of
high groundwater, indicative of the wetland’s shallow
subsurface connection to a downgradient waterbody,
and drainage pipes to the south providing flow directly
into Priest Lake. The property is also part of a larger
wetlands complex that historically drained directly
into Priest Lake but now does so through visible
drainage mechanisms commonly used to discharge
groundwater to a downgradient waterbody. (AR 11,
15, 21, 31, 35.)

Appendix B-24
As to the second criteria, the record supports the
EPA’s adjacency determination despite there being
dry land to the south of Plaintiffs’ property separating
it from Priest Lake. The Old Schneider Road and
residential properties lie between Plaintiffs’ property
and Priest Lake. Plaintiffs’ property and the lake,
however, do not have to be directly abutting in order
to be “adjacent.” “Wetlands separated from other
waters of the United States by man-made dikes or
barriers, natural river berms, beach dunes and the
like are ‘adjacent wetlands.’” 33 C.F.R. § 328.3(c); 40
C.F.R. § 230.3; see also Guidance Document at 5. Here,
the photographs, maps, field observations, and other
materials contained in the record show the entire
wetlands complex, which historically included
Plaintiffs’ property, extended to Priest Lake. (AR 10,
15, 29, 31, 35-39.) Plaintiffs’ property is now
physically separated from the lake only by man-made
barriers. The record shows that without the manmade barriers, water would flow from the property
directly into Priest Lake. In addition, there is a strong
indication of a shallow subsurface flow from Plaintiffs’
property to Priest Lake through the drainage pipes.
Finally, as to the third criteria, the EPA
reasonably concluded the Plaintiffs’ property is
“reasonably close” and, therefore, adjacent to Priest
Lake. Plaintiffs’ Property is located only 300 feet from
the shore of Priest Lake. See 33 C.F.R. § 328.3(c); 40
C.F.R. § 230.3 (Adjacent includes lands that are
“neighboring.”). It is also higher than Priest Lake and
with evidence of a clear shallow subsurface flow from
Plaintiffs’ property downgradient into Priest Lake.
The record, therefore, supports the EPA’s conclusion
that the reasonably close proximity of Plaintiffs’

Appendix B-25
property to Priest Lake gives rise to a science-based
inference that Plaintiffs’ wetlands have an ecological
interconnection with the jurisdictional waters of
Priest Lake. Guidance Document at 5-6; (AR 15, 31,
35.)
The EPA’s determination that the property is
adjacent to Priest Lake is reasonable and supported
in the record. Because Plaintiffs’ property is a
wetlands adjacent to Priest Lake, a traditional
navigable water, the EPA’s conclusion that it has
jurisdiction under the CWA is not arbitrary or
capricious.
3.

Plaintiffs’ Property is Adjacent to
a Jurisdictional Tributary and
Similarly Situated with Other
Wetlands that Together Have A
Significant Nexus to Priest Lake

Defendants assert the EPA correctly determined
the property is also subject CWA jurisdiction because
it is adjacent to a jurisdictional tributary and
similarly situated with other wetlands that, together,
have a significant nexus to Priest Lake. Plaintiffs
disagree arguing their property is not adjacent to a
tributary or similarly situated to other wetlands nor
is there a significant nexus with Priest Lake.
a. Plaintiffs’ Property is Adjacent
to a Jurisdictional Tributary
and Similarly Situated with
Other Wetlands
The EPA concluded the Plaintiffs’ property is
adjacent to an unnamed tributary that flows into

Appendix B-26
Priest Lake and is similarly situated with other
wetlands. The EPA’s conclusion is reasonable and
supported by the Administrative Record.
North of Plaintiffs’ property is the Kalispell Bay
Fen which is a large wetlands complex that drains
into an unnamed tributary running along the north
side of Kalispell Bay Road, to Kalispell Creek, and
then to Priest Lake. (AR 31, 33, 35, 36.) Prior to the
construction of the road and tributary, the Kalispell
Bay Fen was a unified wetlands complex that
extended to Priest Lake and included Plaintiffs’
property and the wetlands abutting Plaintiffs’
property on the east and west. (AR 6, 15, 29, 31, 35,
39.) As discussed throughout this Order, the record
shows evidence of hydrological and ecological
connections between Plaintiffs’ property, the
surrounding wetlands, and the tributary which
support the EPA’s conclusions of adjacency and
similarly situated wetlands.
Plaintiffs’ property is physically separated from
the tributary to the north by Kalispell Bay Road but
is “reasonably close” in proximity being only thirty
feet away. 33 C.F.R. § 328.3(c); 40 C.F.R. § 230.3;
Guidance Document at 5-6. The road and tributaries
are “man-made barriers” that do not defeat adjacency.
Id.
Further,
Plaintiffs’
property
remains
hydrologically connected to the wetlands despite the
construction of the road and tributary through a
shallow subsurface flow. The photographs, maps, and
field observations in the Administrative Record show
the presence of high groundwater on Plaintiffs’
property indicative of a shallow subsurface flow
connecting it to the other wetlands as well as evidence

Appendix B-27
of wetland soils and vegetation similar to the abutting
wetlands. (AR 15, 21, 31, 35, 36, 39.) Without the
construction of the tributary and road north of
Plaintiffs’ property, the entire flow from the wetlands
complex historically did and would still flow out of the
south end of Plaintiffs’ property into Priest Lake. (AR
6, 15, 29, 31, 33, 35, 39.) For these reasons, the Court
finds the Administrative Record supports the EPA’s
conclusion that Plaintiffs’ property is adjacent to the
tributary and/or similarly situated to other wetlands.
b. There is a Significant Nexus to
Priest Lake
The EPA concluded Plaintiffs’ property is subject
to CWA jurisdiction because it, and other similarly
situated wetlands and adjacent jurisdictional
tributaries, have a significant nexus to Priest Lake.
The Court finds the EPA’s determination was not
arbitrary or capricious and is supported by
substantial evidence in the Administrative Record.
In determining whether wetlands that are
isolated or adjacent only to a non-navigable tributary
of a navigable waterway constitute “waters of the
United States,” the Court applies the “significant
nexus test.” See Cal. River Watch v. City of
Healdsburg, 496 F.3d 993, 999 (9th Cir. 2007).5 Under
that test, CWA jurisdiction over wetlands “depends
upon the existence of a significant nexus between the

5 Plaintiffs’ arguments to the contrary have been rejected. (Dkt.
113); see United States v. Robertson, 875 F.3d 1281 (9th Cir.
2017) (“City of Healdsburg remains valid and binding
precedent.”); United States v. HVI Cat Canyon, Inc., 314
F.Supp.3d 1049, 1057 (C.D. Cal. 2018).

Appendix B-28
wetlands in question and navigable waters in the
traditional sense.” Rapanos v. United States, 547 U.S.
715, 779 (2006) (J. Kennedy concurring).
[A] significant nexus exists “if the wetlands,
either alone or in combination with similarly
situated lands in the region, significantly
affect the chemical, physical, and biological
integrity of other covered waters more readily
understood as ‘navigable.’ When, in contrast,
wetlands’ effects on water quality are
speculative or insubstantial, they fall outside
the zone fairly encompassed by the statutory
term ‘navigable waters.”
City of Healdsburg, 496 F.3d at 1000 (quoting
Rapanos, 547 U.S. at 779–80). Thus, to be a water
subject to regulation under the CWA, the water or
wetland must possess a “‘significant nexus’ to waters
that are or were navigable in fact or that could
reasonably be so made.” Rapanos, 547 U.S. at 759.
The test has been extended to tributaries. See United
States v. Robertson, 875 F.3d 1281, 1293 (9th Cir.
2017).
The EPA’s significant nexus determination here is
not arbitrary or capricious. Substantial evidence in
the record shows that Plaintiffs’ property, the
adjacent tributary, and the similarly situated
wetlands have significant physical and biological
impacts on Priest Lake. (AR 31, 33, 35.) The Kalispell
Bay Fen wetland complex, which Plaintiffs’ property
was historically part of and remains connected to, is
rare in northern Idaho and provides significant
hydrological, biological, and ecological influences on
Priest Lake by contributing to base flow; providing

Appendix B-29
flow augmentation and flow attenuation; improving
water quality through sediment retention which
benefits fish; providing invertebrate inputs
supporting fish and wildlife species; and improving
fish movement. (AR 31, 35.)
The record establishes the existence of a
hydrologic connection in the form of a substantial
shallow subsurface flow between the wetlands,
Plaintiffs’ property, the adjacent tributary and the
lake which significantly improves the physical,
biological, and ecological integrity of Priest Lake. (AR
31, 33, 35.) Plaintiffs’ property, the wetlands, and the
tributary all lie at a higher elevation than the lake
with a sufficient gradient for drainage from those
areas down into the lake. (AR 31, 35.) The highly
permeable soil surrounding the lake facilitates the
groundwater drainage. During the field visit, the EPA
observed substantial flow through the outlet stream
north of the road into Kalispell Creek; high
groundwater indicating a subsurface connection to a
downgradient waterbody; and drainage pipes south of
the property discharging groundwater into the lake.
(AR 31, 33, 35.) Historical records also show flows
from the wetlands complex went into the lake. (AR 14,
21, 31, 32, 33, 35, 36.)
This hydrologic connection significantly impacts
Priest Lake by contributing base flow and improving
water quality through sediment retention and
nutrient uptake to runoff before it moves through the
shallow subsurface flow into the lake. (AR 31, 35.) It
also provides flow attenuation by retaining runoff and
upstream shallow groundwater flow during high flow

Appendix B-30
periods which are released slowly into the lake. (AR
31, 35.)
There are also significant impacts on the
biological and ecological characteristics of the lake
through improved habitat and lifecycle support
functions for fish and other species, increased water
quality, and enrichment of the foodweb. During the
field visit, the EPA observed trout and beaver activity
in the adjacent outlet stream and creek, noting the
presence of habitat for fish/spawn areas as well as
substantial aquatic and wildlife habitat diversity. (AR
31, 33, 35.) The connectivity established in the record
between the outlet stream, Plaintiffs’ property, and
the abutting wetlands to Priest Lake serves important
functions in the form of fish movement to and from the
lake, contributions to base flow with fisheries benefit,
and providing substantial invertebrate production
which supports the fish, wildlife, and overall foodweb
for species in the area. (AR 31, 33, 35.)
Based on the foregoing, the Court finds the record
supports the EPA’s determination that Plaintiffs’
property, adjacent tributary, and the similarly
situated wetlands have a significant nexus to Priest
Lake. The physical, hydrological, biological, and
ecological impacts and connections established in the
record provide significant and “critical functions” to
the integrity of Priest Lake by improving water
quality, flow attenuation, and benefits to fish and
wildlife. See Rapanos, 547 U.S. at 779. Therefore, the
EPA’s conclusion that Plaintiffs’ property is subject to
CWA jurisdiction was not arbitrary or capricious and
is supported by substantial evidence in the record.

Appendix B-31
4. Other Adjacent Wetlands Do Not
Exempt Plaintiffs’ Property
Plaintiffs contend that even if the property has
wetlands, their property is excluded from the
definition of jurisdictional wetlands because the land
is adjacent to other wetlands; i.e., the Kalispell Bay
Fen. (Dkt. 103.) Defendants counter arguing the
existence of other adjacent wetlands does not negate
CWA jurisdiction. (Dkt. 105 at 27.)
Plaintiffs rely on the language in the regulation’s
definition of the term “waters of the United States”
which includes “wetlands adjacent to waters (other
than waters that are themselves wetlands.)” 33 C.F.R.
§ 328.3(a)(7) (emphasis added); 40 C.F.R. § 230.3(s)(7).
Plaintiffs’ argument, however, has been rejected.
Universal Welding & Fabrication, Inc. v. United
States Army Corps. of Engineers, No. 4:14-cv-00021,
2015 WL 12661934 (D. Alaska Oct. 1, 2015) affirmed
by 708 Fed. Appx. 301 (9th Cir. 2017). While this
Court is not bound by the Universal Welding decision,
the Court agrees with its reasoning and conclusion
that the correct interpretation of the regulation’s
definition is that jurisdiction cannot be based solely on
adjacency to another wetland; not, as Plaintiffs argue,
that adjacency to other wetlands is an exclusion or
exception to jurisdiction.
ORDER
NOW THEREFORE IT IS HEREBY ORDERED
as follows:
1) Plaintiffs’ Motion to Strike (Dkt. 70) is
DENIED.

Appendix B-32
2) Plaintiffs’ Requests for
(Dkt. 76) is GRANTED.

Judicial

Notice

3) Plaintiffs’ Motion for Summary Judgment
(Dkt. 103) is DENIED.
4) Defendants’ Motion for Summary Judgment
(Dkt. 105) is GRANTED.
DATED: March 31, 2019
/s/ Edward J. Lodge
Honorable Edward J. Lodge
U.S. District Judge

Appendix C-1
APPROVED JURISDICTIONAL
DETERMINATION FORM
U.S. Army Corps of Engineers
This form should be completed by following the
instructions provided in Section IV of the JD Form
Instructional Guidebook.
SECTION I: BACKGROUND INFORMATION
A. REPORT COMPLETION DATE FOR
APPROVED JURISDICTIONAL
DETERMINATION (JD): 5/15/08
B. DISTRICT OFFICE, FILE NAME, AND
NUMBER: CHANTELL / MICHAEL SACKETT
EPA DOCKET CWA-10-008-0014
C. PROJECT LOCATION AND BACKGROUND
INFORMATION:
State: Idaho County/parish/borough: Bonner
City:
Center coordinates of site (lat/long in degree
decimal format): Lat. ○Pick List, Long. ○Pick List.
NE 1/4 Sec 12
T60N. R5W, B.M
Universal Transverse Mercator:
Name of nearest waterbody: UNNAMED
TRIBUTARY TO KALISPELL CREEK
Name of nearest Traditional Navigable Water
(TNW) into which the aquatic resource flows:
PRIEST LAKE
Name of watershed or Hydrologic Unit Code (HUC):
□ Check if map/diagram of review area and/or
potential jurisdictional areas is/are available
upon request.

Appendix C-2
□

Check if other sites (e.g., offsite mitigation sites,
disposal sites, etc...) are associated with this
action and are recorded on a different JD form.

D. REVIEW PERFORMED FOR SITE
EVALUATION (CHECK ALL THAT APPLY):
□ Office (Desk) Determination. Date:
■ Field Determination. Date(s): 5/15/08
SECTION II: SUMMARY OF FINDINGS
A. RHA SECTION 10 DETERMINATION OF
JURISDICTION.
There Pick List “navigable waters of the U.S.” within
Rivers and Harbors Act (RHA) jurisdiction (as defined
by 33 CFR part 329) in the review area. [Required]
□ Waters subject to the ebb and flow of the tide.
□ Waters are presently used, or have been used in
the past, or may be susceptible for use to
transport interstate or foreign commerce.
Explain:
B. CWA SECTION 404 DETERMINATION OF
JURISDICTION.
There Pick List “waters of the U.S.” within Clean
Water Act (CWA) jurisdiction (as defined by 33 CFR
part 328) in the review area. [Required]
1. Waters of the U.S.
a. Indicate presence of waters of U.S. in review
area (check all that apply): 1
□ TNWs, including territorial seas

Boxes checked below shall be supported by completing the
appropriate sections in Section III below.

1

Appendix C-3
□ Wetlands adjacent to TNWs
□ Relatively permanent waters2 (RPWs) that
flow directly or indirectly into TNWs
□ Non-RPWs that flow directly or indirectly
into TNWs
□ Wetlands directly abutting RPWs that flow
directly or indirectly into TNWs
■ Wetlands adjacent to but not directly
abutting RPWs that flow directly or
indirectly into TNWs
□ Wetlands adjacent to non-RPWs that flow
directly or indirectly into TNWs
□ Impoundments of jurisdictional waters
□ Isolated (interstate or intrastate) waters,
including isolated wetlands
b. Identify (estimate) size of waters of the
U.S. in the review area:
Non-wetland waters: linear feet: width (ft)
and/or acres.
Wetlands: / acres.
c. Limits (boundaries) of jurisdiction based
on: Pick List
Elevation of established OHWM (if known):

For purposes of this form, an RPW is defined as a tributary
that is not a TNW and that typically flows year-round or has
continuous flow at least “seasonally” (e.g., typically 3 months).
2

Appendix C-4
2. Non-regulated waters/wetlands (check if
applicable):3
□ Potentially jurisdictional waters and/or
wetlands were assessed within the review area
and determined to be not jurisdictional.
Explain:
SECTION III: CWA ANALYSIS
A. TNWs AND WETLANDS ADJACENT TO
TNWs
The agencies will assert jurisdiction over
TNWs and wetlands adjacent to TNWs. If the
aquatic resource is a TNW, complete Section
III.A.1 and Section III.D.1. only; if the
aquatic resource is a wetland adjacent to a
TNW, complete Sections III.A.1 and 2 and
Section III.D.1.; otherwise, see Section III.B
below.
1. TNW
Identify TNW:
Summarize rationale supporting
determination:
2. Wetland adjacent to TNW
Summarize rationale supporting conclusion
that wetland is “adjacent”:

3

Supporting documentation is presented in Section III.F.

Appendix C-5
B. CHARACTERISTICS OF TRIBUTARY
(THAT IS NOT A TNW) AND ITS
ADJACENT WETLANDS (IF ANY):
This section summarizes information
regarding characteristics of the tributary
and its adjacent wetlands, if any, and it
helps determine whether or not the
standards for jurisdiction established under
Rapanos have been met.
The agencies will assert jurisdiction over
non-navigable tributaries of TNWs where
the tributaries are “relatively permanent
waters” (RPWs), i.e. tributaries that
typically
flow
year-round
or
have
continuous flow at least seasonally (e.g.,
typically 3 months). A wetland that directly
abuts an RPW is also jurisdictional. If the
aquatic resource is not a TNW, but has yearround (perennial) flow, skip. to Section
III.D.2. If the aquatic resource is a wetland
directly abutting a tributary with perennial
flow, skip to Section III.D.4.
A wetland that is adjacent to but that does
not directly abut an RPW requires a
significant nexus evaluation. Corps districts
and EPA regions will include in the record
any available information tit at documents
the existence of a significant nexus between
a relatively permanent tributary that is not
perennial (and its adjacent wetlands if any)
and a traditional navigable water, even
though a significant nexus finding is not
required as a matter of law.

Appendix C-6
If the waterbody4 is not an RPW, or a
wetland directly abutting an RPW, a JD will
require additional data to determine if the
waterbody has a significant nexus with a
TNW. If the tributary has adjacent wetlands,
the significant nexus evaluation must
consider the tributary in combination with
all of its adjacent wetlands. This significant
nexus evaluation that combines, for
analytical purposes, the tributary and all of
its adjacent wetlands is used whether the
review area identified in the JD request is
the tributary, or its adjacent wetlands, or
both. If the JD covers a tributary with
adjacent wetlands, complete Section III.B.l
for the tributary, Section III.B.2 for any
onsite wetlands, and Section III.B.3 for all
wetlands adjacent to that tributary, both
onsite and offsite. The determination
whether a significant nexus exists is
determined in Section III.C below.
1. Characteristics of non-TNWs that flow
directly or indirectly into TNW
(i) General Area Conditions:
Watershed size: Pick List 2-3 SQ. MILES
Drainage area: Pick List
Average annual rainfall: inches
Average annual snowfall: inches

Note that the Instructional Guidebook contains additional
information regarding swales, ditches, washes, and erosional
features generally and in the arid West.
4

Appendix C-7
(ii) Physical Characteristics:
(a) Relationship with TNW:
□ Tributary flows directly into TNW.
■ Tributary flows through Pick List 1
tributaries before entering TNW.
Project waters are Pick List river
miles from TNW. 1/4-1/2 MILE
Project waters are Pick List river
miles from RPW. 0
Project waters are Pick List aerial
(straight) miles from TNW. 300'
Project waters are Pick List aerial
(straight) miles from RPW. 30'
Project waters cross or serve as state
boundaries. Explain:
Identify flow route to TNW5:
UNNAMED TRIBUTARY TO
KALISPELL CREEK TO PRIEST
LAKE
Tributary stream order, if known:
2ND
(b) General Tributary Characteristics
(check all that apply):
Tributary is:
■ Natural - FROM WETLAND
NORTH OF KALISPELL BAY
ROAD UPSTREAM TO 1ST ORDER
TRIBUTARIES

Flow route can be described by identifying, e.g., tributary a,
which flows through the review area, to flow into tributary b,
which then flows into TNW.
5

Appendix C-8
■ Artificial (man-made). Explain: FROM WETLAND TO KALISPELL
CREEK (OUTLET CHANNEL
CONSTRUCTED ALONG NORTH
SIDE OF ROAD)
□ Manipulated (man-altered).
Explain:
Tributary properties with respect to
top of bank (estimate):
Average width: 6 feet
Average depth: 2 feet
Average side slopes: Pick List
Primary tributary substrate
composition (check all that apply):
□ Silts
■ Sands □ Concrete
□ Cobbles ■ Gravel □ Muck
□ Bedrock □ Vegetation. Type/%
cover:
□ Other. Explain:
Tributary condition/stability [e.g.,
highly eroding, sloughing banks].
Explain:
Presence of run/riffle/pool
complexes. Explain:
Tributary geometry: Pick List
Tributary gradient (approximate
average slope): %
(c) Flow:
Tributary provides for: Pick List
PERENNIALFOW PER USGS MAP
AND SITE CONDITIONS AND
MIKE DOHERTY

Appendix C-9
Estimate average number of flow
events in review area/year: Pick List
Describe flow regime:
Other information on duration and
volume:
Surface flow is: Pick List.
Characteristics:
Subsurface flow: Pick List. Explain
findings:·
□ Dye (or other) test performed:
Tributary has (check all that apply):
■ Bed and banks
□ OHWM6 (check all
indicators that apply):
□ clear, natural line
impressed on the
bank
□ changes in the
character of soil
□ shelving
□ vegetation matted
down, bent, or
absent
□ leaf litter disturbed
or washed away

□ the presence of litter
and debris
□ destruction of
terrestrial vegetation
□ the presence of wrack
line
■ sediment sorting
■ scour
■ multiple observed or
predicted flow events

6 A natural or man-made discontinuity in the OHWM docs not
necessarily sever jurisdiction (e.g., where the stream temporarily
flows underground, or where the OHWM bas been removed by
development or agricultural practices). Where there is a break in
the OHWM that is unrelated to the waterbody's flow regime (e.g.,
flow over a rock outcrop or through a culvert), the agencies will
look for indicators of flow above and below the break.

Appendix C-10
■ sediment deposition
□ water staining
□ other (list):
□ Discontinuous
OHWM.7 Explain:

■ abrupt change in
plant community

If factors other than the OHWM
were used to determine lateral
extent of CWA jurisdiction (check all
that apply):
□ High Tide Line indicated
by:
□ oil or scum line along
shore objects
□ fine shell or debris
deposits (foreshore)
□ physical markings/
characteristics
□ tidal gauges
□ other (list):

□ Mean High Water
Mark indicated by:
□ survey to
available datum;
□ physical
markings;
□ vegetation
lines/changes in
vegetation types.

(iii) Chemical Characteristics:
Characterize tributary (e.g., water color is
clear, discolored, oily film; water quality;
general watershed characteristics, etc.).
Explain:
Identify specific pollutants, if known:
(iv) Biological Characteristics. Channel
supports (check all that apply):
■ Riparian corridor. Characteristics (type,
average width): 2'

7

lbid.

Appendix C-11
■ Wetland fringe. Characteristics:
[unintelligible handwriting]
■ Habitat·for:
□ Federally Listed species. Explain
findings:
■ Fish/spawn areas. Explain findings: OBSERVED TROUT
□ Other environmentally-sensitive
species. Explain findings:
■ Aquatic/wildlife diversity. Explain
findings: - TRIB. FLOWS THROUGH
LARGE WELTAND AREA WITH
SUBSTANTIAL HABITAT DIVERSITY
2. Characteristics of wetlands adjacent to nonTNW that flow directly or indirectly into
TNW
(i) Physical Characteristics:
(a) General Wetland Characteristics:
Properties:
Wetland size: 3/4 acres
Wetland type. Explain: - ELIMINATED
THROUGH EXCAVATION / FILL
Wetland quality. Explain: Project wetlands cross or serve as state
boundaries. Explain:
(b) General Flow Relationship with Non-TNW:
Flow is: Pick List. Explain:
Surface flow is: Pick List
Characteristics:

Appendix C-12
Subsurface flow: Pick List. Explain
findings: SEE FIELD NOTES (5/15/08)
□ Dye (or other) test performed:
(c) Wetland Adjacency Determination with
Non-TNW:
□ Directly abutting
■ Not directly abutting
■ Discrete wetland hydrologic connection.
Explain: SHALLOW SUBSURFACE
FLOW (SEE FIELD NOTES 5/15/08)
□ Ecological connection. Explain:
■ Separated by berm/barrier. Explain:
SEPARATED BY ROAD
(d) Proximity (Relationship) to TNW
Project wetlands are Pick List river miles
from TNW. 1/4-1/2 MILE
Project waters are Pick List aerial
(straight) miles from TNW. 300'
Flow is from: Pick List. UNNAMED
TRIBUTARY TO KALISPELL CK TO
PRIEST LAKE
Estimate approximate location of wetland
as within the Pick List floodplain.
(ii) Chemical Characteristics:
Characterize wetland system (e.g., water color
is clear, brown, oil film on surface; water
quality; general watershed characteristics;
etc.). Explain: WETLAND ELIMINATED
Identify specific pollutants, if known:

Appendix C-13
(iii) Biological Characteristics. Wetland
supports (check all that apply):
WETLAND ELIMINATED
□ Riparian buffer. Characteristics (type,
average width):
□ Vegetation type/percent cover. Explain:
□ Habitat for:
□ Federally Listed species. Explain
findings:
□ Fish/spawn areas. Explain findings:
□ Other environmentally-sensitive species.
Explain findings:
□ Aquatic/wildlife diversity. Explain
findings:
3. Characteristics of all wetlands adjacent to
the tributary (if any)
All wetland(s) being considered in the cumulative
analysis: Pick List
Approximately (35) acres in total are being
considered in the cumulative analysis.
For each wetland, specify the following:
Directly
abuts? (Y/N)
Y

Size
(in acres)
35

Directly
abuts?
(Y/N)

Size
(in acres)

Summarize overall biological, chemical and
physical functions being performed:
SEE FIELD NOTES (5/15/08)

Appendix C-14
C. SIGNIFICANT NEXUS DETERMINATION
A significant nexus analysis will assess the flow
characteristics and functions of the tributary itself
and the functions performed by any wetlands adjacent
to the tributary to determine if they significantly
affect the chemical, physical, and biological integrity
of a TNW. For each of the following situations, a
significant nexus exists if the tributary, in
combination with all of its adjacent wetlands, has
more than a speculative or insubstantial effect on the
chemical, physical and/or biological integrity of a
TNW. Considerations when evaluating significant
nexus include, but are not limited to the volume,
duration, and frequency of the flow of water in the
tributary and its proximity to a TNW, and the
functions performed by the tributary and all its
adjacent wetlands. It is not appropriate to determine
significant nexus based solely on any specific
threshold of distance (e.g. between a tributary and its
adjacent wetland or between a tributary and the
TNW). Similarly, the fact an adjacent wetland ties
within or outside of a floodplain is not solely
determinative of significant nexus.
Draw connections between the features documented
and the effects on the TNW, as identified in the
Rapanos Guidance and discussed in the Instructional
Guidebook. Factors to consider include; for example:
• Does the tributary, in combination with its
adjacent wetlands (if any), have the capacity to
carry pollutants or flood waters to TNWs, or to
reduce the amount of pollutants or flood waters
reaching a TNW? YES

Appendix C-15
• Does the tributary, in combination with its
adjacent wetlands (if any), provide habitat and
lifecycle support functions for fish and other
species, such as feeding, nesting, spawning, or
rearing young for species that are present in the
TNW? YES
• Does the tributary, in combination with its
adjacent wetlands (if any), have the capacity to
transfer nutrients and organic carbon that support
downstream foodwebs? YES
• Does the tributary, in combination with its
adjacent wetlands (if any), have other
relationships to the physical, chemical, or
biological integrity of the TNW?
Note: the above list of considerations is not
inclusive and other functions observed or
known to occur should be documented below:
1. Significant nexus findings for non-RPW that has
no adjacent wetlands, and flows directly or
indirectly into TNWs. Explain findings of presence
or absence of significant nexus below, based on the
tributary itself, then go to Section III.D:
2. Significant nexus findings for non-RPW and its
adjacent wetlands, where the non-RPW flows
directly or indirectly into TNWs. Explain findings
of presence or absence of significant nexus below,
based on the tributary in combination with all of
its adjacent wetlands, then go to Section III.D:
3. Significant nexus findings for wetlands adjacent to
an RPW but that do not directly abut the RPW.
Explain findings of presence or absence of
significant nexus below, based on the tributary in

Appendix C-16
combination with all of its adjacent wetlands, then
go to Section III.D: SEE FIELD NOTES (5/15/08)
D. DETERMINATIONS OF JURISDICTIONAL
FINDINGS. THE SUBJECT WATERS/
WETLANDS ARE (CHECK ALL THAT
APPLY):
1. TNWs and Adjacent Wetlands. Check all that
apply and provide size estimates in review area:
□ TNWs: linear feet
width (ft), Or, acres.
□ Wetlands adjacent to TNWs:
acres.
2. RPWs that flow directly or indirectly into TNWs.
□ Tributaries of TNWs where tributaries
typically flow year-round are jurisdictional.
Provide data and rationale-indicating that
tributary is perennial:
□ Tributaries of TNW where tributaries have
continuous flow “seasonally” (e.g.; typically
three months each year) are jurisdictional.
Data supporting this conclusion is provided at
Section III.B. Provide rationale indicating that
tributary flows seasonally:
Provide estimates for jurisdictional waters in the
review area (check all that apply):
□ Tributary waters:
linear feet
width (ft).
□ Other non-wetland waters:
acres.
Identify type(s) of waters:

Appendix C-17
3. Non-RPWs8 that flow directly or indirectly
into TNWs.
□ Waterbody that is not a TNW or an RPW, but
flows directly or indirectly into a TNW, and it
has a significant nexus with a TNW is
jurisdictional. Data supporting this conclusion
is provided at Section III.C.
Provide estimates for jurisdictional waters within
the review area (check all that apply):
□ Tributary waters:
linear feet
width (ft).
□ Other non-wetland waters:
acres.
Identify type(s) of waters:
4. Wetlands directly abutting an RPW that
flow directly or indirectly into TNWs.
□ Wetlands directly abut RPW and thus are
jurisdictional as adjacent wetlands.
□ Wetlands directly abutting an RPW where
tributaries typically flow year-round.
Provide data and rationale·indicating that
tributary is perennial in Section III.D.2,
above. Provide rationale indicating that
wetland is directly abutting an RPW:
□ Wetlands directly abutting an RPW where
tributaries typically flow “seasonally.”
Provide data indicating that tributary is
seasonal in Section III.B and rationale in
Section III.D.2, above. Provide rationale
indicating that wetland is directly . abutting
an RPW:

8

See Footnote # 3.

Appendix C-18
Provide acreage estimates for jurisdictional
wetlands in the review area:
acres.
5. Wetlands adjacent to but not directly
abutting an RPW that flow directly or
indirectly into TNWs.
■ Wetlands that do not directly abut an RPW,
but when considered in combination with the
tributary to which they are adjacent and with
similarly situated adjacent wetlands, have a
significant nexus with a TNW are
jurisdictional. Data supporting this conclusion
is provided at Section III.C.
Provide acreage estimates for jurisdictional
wetlands in the review area:
acres.
6. Wetlands adjacent to non-RPWs that flow
directly or indirectly into TNWs.
□ Wetlands adjacent to such waters, and have
when considered in combination with the
tributary to which they are adjacent and with
similarly situated adjacent wetlands, have a
significant nexus with a TNW are
jurisdictional. Data supporting this conclusion
is provided at Section III.C.
Provide estimates for jurisdictional wetlands in
the review area:
acres.
7. Impoundments of jurisdictional waters.9
As a general rule, the impoundment of a
jurisdictional tributary remains jurisdictional.
9 To complete the analysis refer to the key in Section III.D.6 of
the Instructional Guidebook.

Appendix C-19
□ Demonstrate that impoundment was created
from “waters of the U.S.,” or
□ Demonstrate that water meets the criteria for
one of the categories presented above (1-6), or
□ Demonstrate that water is isolated with a
nexus to commerce (see E below).
E. ISOLATED [INTERSTATE OR INTRASTATE] WATERS, INCLUDING ISOLATED
WETLANDS, THE USE, DEGRADATION OR
DESTRUCTION OF WHICH COULD
AFFECT INTERSTATE COMMERCE,
INCLUDING ANY SUCH WATERS (CHECK
ALL THAT APPLY):10
□ which are or could be used by interstate or
foreign travelers for recreational or other
purposes.
□ from which fish or shellfish are or could be
taken and sold in interstate or foreign
commerce.
□ which are or could be used for industrial
purposes by industries in interstate commerce.
□ Interstate isolated waters. Explain:
□ Other factors. Explain:

10 Prior to asserting or declining CWA jurisdiction based solely
on this category, Corps Districts will elevate the action to Corps
and EPA HQ for review consistent with the process described in
the Corps/EPA Memorandum Regarding CWA Act Jurisdiction
Following Rapanos.

Appendix C-20
Identify water body and summarize
rationale supporting determination:
Provide estimates for jurisdictional waters in the
review area (check all that apply):
□ Tributary waters:
linear feet
width (ft).
□ Other non-wetland waters:
acres.
Identify type(s) of waters:
□ Wetlands:
acres.
F. NON-JURISDICTIONAL WATERS,
INCLUDING WETLANDS (CHECK ALL
THAT APPLY):
□ If potential wetlands were assessed within the
review area, these areas did not meet the
criteria in the 1987 Corps of Engineers
Wetland Delineation Manual and/or
appropriate Regional Supplements.
□ Review area included isolated waters with no
substantial nexus to interstate (or foreign)
commerce.
□ Prior to the Jan 2001 Supreme Court
decision in “SWANCC,” the review area
would have been regulated based solely on
the “Migratory Bird Rule” (MBR).
□ Waters do not meet the “Significant Nexus”
standard, where such a finding is required for
jurisdiction. Explain:
□ Other: (explain, if not covered above):
Provide acreage estimates for non-jurisdictional
waters in the review area, where the sole
potential basis of jurisdiction is the MBR factors
(i.e., presence of migratory birds, presence of
endangered species, use of water for irrigated

Appendix C-21
agriculture), using best professional judgment
(check all that apply):
□ Non-wetland waters (i.e., rivers, streams):
linear feet width (ft).
□ Lakes/ponds:
acres.
□ Other non-wetland waters:
acres. List type
of aquatic resource:
□ Wetlands:
acres.
Provide acreage estimates for non-jurisdictional
waters in the review area that do not meet the
“Significant Nexus” standard, where such a
finding is required for jurisdiction (check all that
apply):
□ Non-wetland waters (i.e., rivers, streams):
linear feet,
width (ft).
□ Lakes/ponds:
acres.
□ Other non-wetland waters:
acres. List type
of aquatic resource:
□ Wetlands:
acres.
SECTION IV: DATA SOURCES.
A. SUPPORTING DATA. Data reviewed for JD
(check all that apply - checked items shall be
included in case file and, where checked and
requested, appropriately reference sources below):
□ Maps, plans, plots or plat submitted by or on
behalf of the applicant/consultant:
□ Data sheets prepared/submitted by or on behalf
of the applicant/consultant.
□ Office concurs with data sheets/delineation
report.
□ Office does not concur with data
sheets/delineation report.
□ Data sheets prepared by the Corps:

Appendix C-22
□ Corps navigable waters’ study:
□ U.S. Geological Survey Hydrologic Atlas:
□ USGS NHD data.
□ USGS 8 and 12 digit HUC maps.
■ U.S. Geological survey map(s). Cite scale &
quad name: PRIEST LAKE SW, ID 1996
1:24,000
□ USDA Natural Resources Conservation Service
Soil Survey. Citation:
■ National wetlands inventory map(s). Cite
name: SAME AS USGS
□ State/Local wetland inventory map(s):
□ FEMA/FIRM map(s):
□ 100-year Floodplain Elevation is:
(National
Geodectic Vertical Datum of 1929)
■ Photographs: ■ Aerial (Name & Date): 1932/
CURRENT GOOGLE EARTH IMAGERY
or □ Other (Name & Date):
□ Previous determination(s). File no. and date of
response letter: (CDE PRIEST LAKE JD SUPPORTS INTERSTATE COMMERCE)
□ Applicable/supporting case law:
□ Applicable/supporting scientific literature:
□ Other information (please specify):
B. ADDITIONAL COMMENTS TO SUPPORT
JD:
SEE FIELD NOTES (5/15/08)

Appendix D-1
UNITED STATES ENVIRONMENTAL
PROTECTION AGENCY
REGION 10
1200 Sixth Avenue, Suite 900
Seattle, Washington 98101-3140
Reply to: ETPA-083
May 15, 2008
SENT VIA CERTIFIED MAIL-RETURN
RECEIPT REQUESTED
Chantell and Michael Sackett
P.O. Box 425
Nordman, ID 83848-0368
Re: In the Matter of Chantell and Michael
Sackett
Amended Administrative Compliance
Order,
EPA Docket No. CWA-10-2008-0014
Dear Mr. and Ms. Sackett:
With this letter, the U.S. Environmental
Protection Agency (EPA) is issuing an amended
administrative
compliance
order
(“Amended
Compliance Order”) that supersedes and replaces the
order issued to you on November 26, 2007. The
Amended Compliance Order is issued pursuant
Sections 308 and 309(a) of the Clean Water Act, 33
U.S.C. §§ 1318 and 1319(a). EPA is issuing this order
in connection with the unauthorized placement of fill
material into wetlands at your property located at

Appendix D-2
1604 Kalispell Bay Road near Kalispell Creek, Bonner
County, Idaho (“Site”).
It has become apparent that the amended dates
for compliance detailed in my letter to you dated
May 1, 2008, may not result in successful
establishment of re-vegetated wetland species at the
Site because of the short growing season in northern
Idaho. Please note that this Amended Compliance
Order removes the obligation that wetland vegetation
be re-planted at the Site by July 1, 2008. In addition,
the Amended Compliance Order extends the date for
removal of fill material and replacement of original
wetland soils to October 31, 2008 (ahead of the winter
season when removal of fill material and replacement
of wetland soils would be infeasible). Since replanting
will not be required in the 2008 growing season, there
is no need to require the immediate removal of fill
material. This Amended Compliance Order will
account for the ecological constraints in northern
Idaho and will also remove the need for immediate
judicial resolution of EPA’s motion to dismiss the
complaint (Case No. CV-08-0185-EJL) you filed on
April 28, 2008.
Successful compliance with the Amended
Compliance Order does not preclude EPA from
bringing a formal enforcement action for penalties or
further injunctive relief to address the Clean Water
Act violations associated with your property located at
the Site. Please also be aware that failure to comply
with the Amended Compliance Order may subject you
to civil penalties of up to $32,500 per day for each
violation, administrative penalties of up to $11,000
per day for each day during which the violation

Appendix D-3
continues or a civil action in Federal court for
injunctive relief, pursuant to Section 309 of the CWA,
33 U.S.C. §1319.
Should you have any questions concerning this
matter, please have your attorney contact Mr. Ankur
Tohan directly at 206-553-1796.
Sincerely,
/s/ Richard B. Parkin
Richard Parkin, Acting Director
Office of Ecosystems, Tribal,
and Public Affairs
cc: H. Reed Hopper, Pacific Legal Foundation
Damien Schiff, Pacific Legal Foundation
Leslie Weatherhead, Witherspoon, Kelley,
Davenport & Toole
Greg Taylor, ID Dept. of Water Resources
Beth Reinhart, U.S. Army Corps of Engineers

Appendix D-4
UNITED STATES ENVIRONMENTAL
PROTECTION AGENCY
REGION 10
1200 Sixth Avenue, Suite 900
Seattle, Washington 98101

)
)
CHANTELL AND
)
MICHAEL SACKETT
)
)
Bonner County, Idaho
)
)
Respondents.
)
)
In the Matter of:

DOCKET NO.
CWA-10-2008-0014
AMENDED
COMPLIANCE
ORDER

The following FINDINGS AND CONCLUSIONS
are made and ORDER issued pursuant to the
authority vested in the Administrator of the United
States Environmental Protection Agency (“EPA”) by
sections 308 and 309(a) of the Clean Water Act (“the
Act”), 33 U.S.C. §§ 1318 and 1319(a). This authority
has been delegated to the Regional Administrator,
Region 10, and has been duly redelegated to the
undersigned Director of the Office of Ecosystems,
Tribal and Public Affairs. This AMENDED
COMPLIANCE ORDER (“Order”') supersedes and
replaces the Compliance Order issued under Docket
Number CWA-10-2008-0014 to Respondents on
November 26, 2007.

Appendix D-5
I. FINDINGS AND CONCLUSIONS
1.1 Section 301(a) of the Act, 33 U.S.C.
§ 1311(a), prohibits the discharge of pollutants into
waters of the United States by any person, except as
authorized by a permit issued pursuant to section 402
or 404 of the Act, 33 U.S.C. §§ 1342 or 1344. The
unpermitted discharge of any pollutant from a point
source constitutes a violation of section 301(a) of the
Act, 33 U.S.C. § 1311(a). Section 502(12), 33 U.S.C.
§ 1362(12), defines the term “discharge of any
pollutant” to include “any addition of any pollutant to
navigable waters from any point source.” “Navigable
waters” are defined as “waters of the United States.”
33 U.S.C. § 1362(7).
1.2 Respondents Chantell and Michael Sackett
(hereinafter collectively “Respondents”) are “persons”
within the meaning of Sections 301(a) and 502(5) of
the Act, 33 U.S.C. §§ 1311(a) and 1362(5).
1.3 Respondents own, possess, or control real
property identified as 1604 Kalispell Bay Road near
Kalispell Creek, Bonner County, Idaho; and located
within Section 12, Township 60 North, Range 5 West,
Boise Meridian (“Site”). The Site is adjacent to Priest
Lake, and bounded by Kalispell Bay Road on the north
and Old Schneider Road on the south.
1.4 The Site contains wetlands within the
meaning of 40 C.F.R. § 230.3(t) and 33 C.F.R.
§ 328.3(b); and the wetlands meet the criteria for
jurisdictional wetlands in the 1987 “Federal Manual
for Identifying and Delineating Jurisdictional
Wetlands.”

Appendix D-6
1.5 The Site’s wetlands are adjacent to Priest
Lake within the meaning of 40 C.F.R. § 230.3(s)(7)
and 33 C.F.R. § 328.3(a)(7). Priest Lake is a “navigable
water” within the meaning of section 502(7) of the Act,
33 U.S.C. § 1362(7), and “waters of the United States”
within the meaning of 40 C.F.R. § 232.2.
1.6 In April and May, 2007, at times more fully
known to Respondents, Respondents and/or persons
acting on their behalf discharged fill material into
wetlands
at
the
Site.
Respondents
filled
approximately one half acre.
1.7 Upon information and belief, Respondents
and/or persons acting on their behalf used heavy
equipment to place the fill material into the wetlands.
The heavy equipment used to fill these waters is a
“point source” within the meaning of section 502(14)
of the Act, 33 U.S.C. § 1362(14).
1.8 The fill material that Respondents and/or
persons acting on their behalf caused to be discharged
included, among other things, dirt and rock, each of
which constitutes a “pollutant” within the meaning of
section 502(6) of the Act, 33 U.S.C. § 1362(6).
1.9 By causing such fill material to enter waters
of the United States, Respondents have engaged, and
are continuing to engage, in the “discharge of
pollutants” from a point source within the meaning of
sections 301 and 502(12) of the Act, 33 U.S.C. §§ 1311
and 1362(12).
1.10 Respondents’ discharges of dredged and/or
fill material was not authorized by any permit issued

Appendix D-7
pursuant to section 402 or 404 of the Act, 33 U.S.C.
§§ 1312 or 1314.
1.11 Respondents discharge of pollutants into
waters of the United States at the Site without a
permit constitutes a violation of section 301 of the Act,
33 U.S.C. § 1311.
1.12 As of the effective date of this Order, the fill
material referenced in Paragraph 1.6 above remains
in place.
1.13 Each day the fill material remains in place
without the required permit constitutes an additional
day of violation of Section 301(a) of the Act, 33 U.S.C.
§ 1311(a).
1.14 Taking into account the seriousness of this
violation and Respondents’ good faith efforts to
comply with applicable requirements, the schedule for
compliance contained in the following Order is
reasonable and appropriate.
II. ORDER
Based upon the foregoing FINDINGS AND
CONCLUSIONS and pursuant to sections 308 and
309(a) of the Clean Water Act, 33 U.S.C. §§ 1318 and
1319(a), it is hereby ORDERED as follows:
2.1 In compliance with the Clean Water Act,
Respondents shall remove all unauthorized fill
material placed within wetlands located at Section 12,
Township 60 North, Range 5 West, Boise Meridian
(“Site”). The removed fill material is to be moved to a
location approved by the EPA representative

Appendix D-8
identified in Paragraph 2.8. To the maximum extent
practicable, the Site shall be restored to its original,
pre-disturbance topographic condition with the
original wetlands soils that were previously removed
from the Site. Acceptable reference topographic
conditions exist on wetlands immediately adjacent to
and bordering the Site.
2.2 Compliance activities described under
Paragraph 2.1 must be completed no later than
October 31, 2008.
2.3 At least 48 hours prior to commencing
compliance activity on the Site, Respondents shall
provide verbal notification to the EPA representative
identified in Paragraph 2.8.
2.4 Within 7 days of completion of the
compliance
activities
under
Paragraph
2.1,
Respondents shall notify, in writing, the EPA
representative identified in Paragraph 2.8. The
written notification shall include photographs of Site
conditions prior to and following compliance with this
Order.
2.5 Upon receipt of the notification referenced
under Paragraph 2.4, EPA may schedule an
inspection of the Site by EPA or its designated
representative
2.6 Respondents shall provide and/or obtain
access to the Site and any off-Site areas to which
access is necessary to implement this Order; and shall
provide access to all records and documentation
related to the conditions at the Site and the
restoration activities conducted pursuant to this

Appendix D-9
Order. Such access shall be provided to EPA
employees and/or their designated representatives,
who shall be permitted to move freely at the site and
appropriate off-site areas in order to conduct actions
that EPA determines to be necessary.
2.7 EPA encourages Respondents to engage in
informal discussion of the terms and requirements of
this Order. Such discussions should address any
questions Respondents have concerning compliance
with this Order. In addition, Respondents are
encouraged to discuss any allegations herein which
Respondents believe to be inaccurate or requirements
which may not be attainable and the reasons why.
Alternative methods to attain the objectives of this
Order may be proposed. If acceptable to EPA, such
proposals may be incorporated into amendments to
this Order at EPA’s discretion. After compliance with
the requirements of this Order, Respondents are also
encouraged to contact the EPA representative
identified in Paragraph 2.8 to discuss restoration of
the Site to its pre-disturbance, vegetative condition.
2.8 All submissions and notifications required
by this Order shall be sent to:
John Olson
U.S. EPA, Idaho Operations Office
1435 North Orchard Street
Boise, ID 83706
Phone: (208) 378-5756
Fax: (208) 378-5744.
2.9 Prior to the completion of the terms of this
Order, Respondents shall provide any successor in
ownership, control, operation, or any other interest in

Appendix D-10
all or part of the Site, a copy of this Order at least 30
days prior to the transfer of such interest. In addition,
Respondents shall simultaneously notify the EPA
representative identified in Paragraph 2.8 in writing
that the notice required in this Section was given. No
real estate transfer or real estate contract shall in any
way affect Respondent’s obligation to comply fully
with the terms of this Order.
2.10 This Order shall become effective on the
date it is signed.
III. SANCTIONS
3.1 Notice is hereby given that violation of, or
failure to comply with, the foregoing Order may
subject Respondents to (1) civil penalties of up to
$32,500 per day of violation pursuant to section 309(d)
of the Act, 33 U.S.C. § 1319(d), and 40 C.F.R. Part 19;
(2) administrative penalties of up to $11,000 per day
for each violation, pursuant to section 309(g) of the
Act, 33 U.S.C. § 1319(g), and 40 C.F.R. Part 19; or
(3) civil action in federal court for injunctive relief,
pursuant to Section 309(b) of the Act, 33 U.S.C.
§ 1319(b).
3.2. Nothing in this Order shall be construed to
relieve Respondents of any applicable requirements of
federal, state, or local law. EPA reserves the right to
take enforcement action as authorized by law for any
violation of this Order, and for any future or past
violation of any permit issued pursuant to the Act or
of any other applicable legal requirements, including,

Appendix D-11
but not limited to, the violations identified in Part I of
this Order.
Dated this 15th day of May, 2008
/s/ Richard B. Parkin
RICHARD PARKIN, Acting Director
Office of Ecosystems, Tribal and Public Affairs

Appendix E-1
Satellite photo of Sackett site.

